<html>
<title> - AVIATION SECURITY: AN UPDATE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      AVIATION SECURITY: AN UPDATE

=======================================================================

                               (110-156)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                  U.S. GOVERNMENT PRINTING OFFICE
43-755                    WASHINGTON : 2008
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York, Vice Chair   SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
MAZIE K. HIRONO, Hawaii              VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Barclay, Charles, AAE, President, American Association of Airport 
  Executives.....................................................    35
Berrick, Cathleen A., Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................     5
Brill, Steven, Chairman and Chief Executive Officer, Clear 
  Verified Identity Pass, Inc....................................    35
Campbell, Tim, AAE, Executive Director, Maryland Aviation 
  Administration, Baltimore/Washington International Thurgood 
  Marshall Airport...............................................    35
Hawley, Hon. Kip, Assistant Secretary, Transportation Security 
  Administration, U.S. Department of Homeland Security...........     5
Meenan, John M., Executive Vice President and Chief Operating 
  Officer, Air Transport Association.............................    35
Mehra, Ajay, President, Rapiscan Systems, Inc....................    35
Prater, John, President, Airline Pilots Association, 
  International..................................................    35

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    55
Costello, Hon. Jerry F., of Illinois.............................    56
Graves, Hon. Sam, of Missouri....................................    63
Mitchell, Hon. Harry E., of Arizona..............................    68
Oberstar, Hon. James L., of Minnesota............................    69
Richardson, Hon. Laura A., of California.........................    73
Salazar, Hon. John T., of Colorado...............................    76

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Barclay, Charles.................................................    79
Berrick, Cathleen A..............................................    88
Brill, Steven....................................................   109
Campbell, Timothy L..............................................   138
Hawley, Hon. Kip.................................................   143
Meenan, John.....................................................   169
Mehra, Ajay......................................................   172
Prater, John.....................................................   179

                       SUBMISSIONS FOR THE RECORD

Berrick, Cathleen A., Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office, responses to 
  questions from Rep. Mica.......................................   105
Brill, Steven, Chairman and Chief Executive Officer, Clear 
  Verified Identity Pass, Inc., responses to questions from Rep. 
  Mica...........................................................   129
Campbell, Tim, AAE, Executive Director, Maryland Aviation 
  Administration, Baltimore/Washington International Thurgood 
  Marshall Airport, responses to questions from Rep. Mica........   141
Hawley, Hon. Kip, Assistant Secretary, Transportation Security 
  Administration, U.S. Department of Homeland Security:

  Response to request for information from Rep. Costello.........     9
  Responses to questions from Rep. Costello......................   151
  Responses to questions from Rep. Mica..........................   156
  Responses to questions from Rep. Richardson....................   162
Mehra, Ajay, President, Rapiscan Systems, Inc., responses to 
  questions from Rep. Mica.......................................   177

                        ADDITIONS TO THE RECORD

Aeronautical Repair Station Association, Marshall S. Filler, 
  Managing Director and General Counsel, written statement.......   187
Cargo Airline Association, Stephen A. Alterman, President, 
  written statement..............................................   192

[GRAPHIC] [TIFF OMITTED] T3755.001

[GRAPHIC] [TIFF OMITTED] T3755.002

[GRAPHIC] [TIFF OMITTED] T3755.003

[GRAPHIC] [TIFF OMITTED] T3755.004

[GRAPHIC] [TIFF OMITTED] T3755.005

[GRAPHIC] [TIFF OMITTED] T3755.006

[GRAPHIC] [TIFF OMITTED] T3755.007

[GRAPHIC] [TIFF OMITTED] T3755.008

[GRAPHIC] [TIFF OMITTED] T3755.009



                      AVIATION SECURITY: AN UPDATE

                              ----------                              


                        Thursday, July 24, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order.
    The Chair will ask all Members, staff, everyone here in the 
room to turn their electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on 
aviation security, an update on aviation security. I will give 
a brief opening statement and then call on the distinguished 
Ranking Member of the Subcommittee to give brief remarks or an 
opening statement. And then we will go to our first panel.
    I want to welcome everyone to this Subcommittee hearing on 
"Aviation Security: An Update." I am pleased to welcome the 
Administrator of the Transportation Security Administration and 
the Assistant Secretary of Homeland Security, Kip Hawley, to 
the Subcommittee hearing today. We met in the last few weeks in 
a closed-door session to be briefed on a number of security 
issues, and we always appreciate the briefings that he and his 
staff provide to the Subcommittee.
    September the 11th, 2001, demonstrated weaknesses in the 
Federal aviation security system that were due in part to a 
lack of national standards. When Congress passed the Aviation 
and Transportation Security Act, the goal was to ensure that 
each airport would be following the same protocol, including 
the same hiring, training and testing standards. Subsequent 
legislation further sharpened that goal by requiring a 
comprehensive plan for aviation.
    I believe that we have taken positive steps to ensure 
aviation security through technology upgrades and improvements, 
a federalized screener workforce, and a continued focus on a 
comprehensive approach to airline and airport security. Make no 
mistake: The traveling public is safer today than they were 
before September the 11th, 2001.
    For many traveling this summer, airport security can be a 
frustrating experience. However, the TSA has been working with 
airports to introduce the Checkpoint Evolution, also being 
referred to as the "checkpoint of the future," which is being 
demonstrated at BWI Airport, which I flew out of and 
experienced last week. The program will introduce new 
technologies and create a better checkpoint experience for the 
passengers and travelers. And I am interested in hearing more 
about that initiative from Mr. Hawley today.
    Further, I have been a proponent of in-line Explosive 
Detection Systems and have introduced legislation in the past 
to help generate additional revenues so that more airports can 
be equipped with EDS. In-line baggage screening systems have a 
much higher throughput than stand-alone systems. If we install 
in-line systems, more bags will be screened by Explosive 
Detection Systems instead of less reliable methods.
    Of the largest 29 airports in the country, six have full 
in-line EDS systems, while 14 have partial EDS systems. 52 
airports in total have either full or partial systems, and 407 
of the federalized airports in the United States do not have 
in-line EDS systems.
    The TSA and airport operators rely on letters of intent as 
their principal method for funding the modification of airport 
facilities to incorporate in-line baggage screening systems. 
The TSA has issued 8 LOIs to cover the cost of installing 
systems at nine airports, for a total cost to the Federal 
Government of $957.1 million over 4 years.
    In the past, the General Accountability Office reports that 
TSA has estimated that in-line baggage screening systems at the 
nine airports that received LOI funding could save the Federal 
Government $1.3 billion over 7 years. The TSA further estimated 
that it could recover its initial investment in the in-line 
systems at these airports in a little over 1 year.
    I am interested in hearing more from TSA and the GAO on 
what progress is being made on the in-line EDS, and when we can 
and where we can expect to see more installations of these 
systems to optimize our security system at our airports.
    I am also interested in an update on domestic air cargo 
screening, given that 100 percent of passenger air cargo must 
be screened by 2010. Further, I have concerns with the pace at 
which TSA is moving to issue and implement security regulations 
for foreign repair stations. Under current law, the FAA will be 
prohibited from issuing new certificates to foreign repair 
stations if TSA does not issue a final rule by August 3rd, 
2008. I want to know from TSA if they plan to make this 
deadline and, if not, what is the realistic timeline that 
Congress can expect the rule to be issued.
    Finally, I believe that the Registered Travelers program 
and initiatives like CrewPASS are important programs to 
expedite frequent travelers and crew members through security 
checkpoints, allowing screeners to spend more time on others. I 
would like to hear what progress is being made on the RT 
program and also the CrewPASS program.
    With that, I again welcome our witnesses here today and 
look forward to hearing their testimony.
    Before I recognize Mr. Petri for his opening statement, I 
would ask unanimous consent to allow 2 weeks for all Members to 
receive and extend their remarks and to permit the submission 
of additional statements and materials by Members and 
witnesses.
    Without objection, so ordered.
    At this time, the Ranking Member, Mr. Petri, is recognized 
for his comments or opening statement.
    Mr. Petri. Chairman Costello, thank you for holding this 
hearing on aviation safety.
    Each year, our Government spends billions of dollars to 
protect airline passengers, and, as frequent flyers ourselves, 
we experience the impact of these efforts on a weekly basis. 
This Subcommittee remains diligent in our general oversight 
responsibilities over the Transportation Security 
Administration and how new security policies affect the 
traveling public and the airline industry.
    There is such a fine line between security and safety that 
we would be remiss if we did not track and seek updates on 
TSA's activities in the aviation area. As such, I am interested 
in learning what the Transportation Security Administration is 
doing to strike the right balance between addressing security 
needs and avoiding excessive hassle to the airline passenger.
    I am interested in learning how technology solutions might 
increase the level of security provided, while expediting what 
is currently a burdensome and arduous process for passengers, 
airports and airlines alike.
    Finally, I would like to hear how security efforts are 
coordinated around the world. Aviation is a global industry, 
and our security procedures should reflect that.
    Given the scarce resources available for transportation 
security, we must not ignore other transportation modes. It 
would seem to me that by ensuring that the most efficient 
technologies are used in aviation security, we can free up 
security resources for other transportation modes.
    To be sure, aviation remains the target of choice of our 
enemies, so we must not take the eye off the ball, but we must 
be sure not to ignore security vulnerabilities in other 
transportation modes as well.
    With that, I thank the Chairman, and I look forward to 
hearing from the witnesses, and yield back the balance of my 
time.
    Mr. Costello. I thank the Ranking Member, and now recognize 
the gentlelady from the District of Columbia, Ms. Norton.
    Mr. Norton. Thank you very much, Mr. Chairman.
    And I particularly thank you for today's hearing. I know 
you intended to have this hearing on security in any case, but 
I also requested this hearing because there are a number of 
very important issues that overlap with the Homeland Security 
Committee, on which I also serve. And this Subcommittee is, I 
think, very important to move those issues forward in concert 
with the Homeland Security Committee.
    I was concerned when I asked for this hearing that my own 
jurisdiction was the last and the latest in getting the 
Registered Traveler program, among other things, Mr. Chairman. 
But, as you know, my concern is far more comprehensive, largely 
because I represent the Nation's capital, which is, of course, 
why I am a Member of the Homeland Security Committee.
    I am interested in many of the security issues that will be 
before us, particularly domestic cargo, employee screening, a 
number of issues you named and I join with you in believing are 
important to air.
    Mr. Chairman, the airline business was in deep trouble long 
before 9/11. With gas prices, one wonders how we still have an 
airline industry. We can't do anything about a sector that 
operates in the marketplace, but we have in our hands, it seems 
to me, one way to help the airlines, which now experience--have 
the kind of experience that I associate with my college days, 
riding the buses. The fact is that the airline travel, for some 
reasons not in their control, indeed often for reasons not in 
their control--crowding in the air, like, particularly 
weather--but the inconveniences on the ground are often, Mr. 
Chairman, in our hands.
    When after 9/11 we responded appropriately by making sure 
that the screeners were in fact federalized, I am sure that 
security is better now than it was then. Nevertheless, I think 
if you go to an airport, as my colleagues are condemned to do 
and I am not, I think you will wonder whether or not things 
have gotten worse for passengers, for people who have to use 
the airlines, and what can be done about that.
    There is where I think the Congress has a very important 
role, because so much of it has to do with security, and that 
is in our hands. We are having a boom in mass transit. We 
responded recently with the appropriate bill. We are not having 
a boom in air travel.
    Federalizing the screeners was the right thing to do. But, 
Mr. Chairman, I am convinced that technology is the answer to 
most of the inconvenience, including more accurate screening of 
cargo, of luggage, of people. This is not the country we were 
in innovation, where if there was an emergency you simply moved 
to it because the Government got out of the way or did a lot of 
R&D and helped people to do it quickly. This is a country that 
keeps people doing by hand things that, seems to me, the 
technology sector already are able to do. And one of the things 
I want to find out is why most of what we do, albeit with human 
beings doing the screening, is not now moving more fastly 
toward a technology-oriented approach to security in airports.
    Thank you very much, Mr. Chairman.
    Mr. Costello. I couldn't agree with the gentlelady more. 
And technology is the answer. And that is one of the reasons 
why we want to hear a progress report on EDS and some other 
systems, as well.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Hayes, for brief comments.
    Mr. Hayes. Thank you, Mr. Chairman. I appreciate what you 
are doing. The TSA folks are doing great work. And we looking 
forward to getting biometrics and some other things to get 
things moving. Thanks for doing this today.
    Appreciate the witnesses being here.
    Mr. Costello. The Chair would like to now move to the 
witnesses. Any other opening statements?
    If not, before I recognize our witnesses, let me mention 
that the Homeland Security Committee, the Subcommittee on 
Transportation Security and Infrastructure, the Chairperson of 
that Committee is Sheila Jackson Lee. And she has contacted me. 
We have been working together, and we are going to continue to 
work very closely together on these issues with TSA. We had 
conversations over the last week and as late as last night.
    So, with that, let me recognize and introduce our witnesses 
on the first panel: The Honorable Kip Hawley, Assistant 
Secretary, U.S. Department of Homeland Security, Transportation 
Security Administration; Cathleen Berrick, who is the director 
of Homeland Security and Justice Issues with the U.S. 
Government Accountability Office.
    With that, Mr. Hawley, you are recognized under the 5-
minute rule.
    And as all of the witnesses today should know, their full 
statement will appear in the record.
    Mr. Hawley, you are recognized.

      TESTIMONY OF HON. KIP HAWLEY, ASSISTANT SECRETARY, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
  HOMELAND SECURITY; CATHLEEN A. BERRICK, DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Hawley. Thank you very much, Mr. Chairman, Ranking 
Member Petri, and Members of the Committee.
    I would like to start off with a recognition that this 
public hearing is the first for me in front of this 
Subcommittee. However, I have appeared approximately six times 
in closed, classified sessions with this Subcommittee. And I 
want to express my appreciation to the Chairman and Ranking 
Member and all the Members and staff for the amount of work and 
preparation that they have put into these important issues. And 
I look forward to a very good dialogue here today.
    I would also like to recognize the Deputy Administrator of 
TSA, Gale Rossides, who is behind me, who will be Acting 
Administrator when there is a change of administration. We are 
working very hard, under the leadership of Deputy Secretary of 
Homeland Security Paul Schneider, to assure that the transition 
is smooth and that we have a totally seamless operational 
transfer. And that will occur.
    I would like to just recap where we are.
    On the threat picture, we have recently had the Director of 
National Intelligence, the Director of the CIA, the Director of 
the FBI, and the Secretary of Homeland Security be very clear 
that there is an active al Qaeda threat. Aviation remains at or 
near the center of their target list. That is important for all 
of us to keep in mind.
    TSA's mission is to stop attacks that might be in progress 
and help others disrupt those that may be in planning. How do 
we do that? We have, as several of the Members mentioned here 
this morning, a very important opportunity to use American 
technology to help the counterterrorism mission. This year 
alone, we are putting in more than $250 million into the 
checkpoint, which will be a significant upgrade of carry-on 
baggage with Advanced Technology (AT) X-Ray. We have just 
announced a purchase of about 120 of the scanning machines that 
will handle what is carried on the body.
    Perhaps more importantly, we are retraining the entire 
workforce at TSA, from my position to the Federal Security 
Directors to the front-line officers at TSA. That is being 
directed to take advantage of all the intelligence that we now 
have, all the technical data that we have on IED recognition 
and improvised chemical devices, and also to take advantage of 
the significant experience that our officers have in screening 
more than 3.5 billion people. That is more than the population 
of the Earth. That is a very significant set of learning that 
we have within our officers that we need to make sure is 
switched on and applied to security screening every day.
    Lastly, the most important overall point is that we have a 
partnership with airlines, with airports, with the public, and 
with other countries, and that this shared responsibility is 
what brings us a stronger and stronger level of security going 
forward.
    It is my hope that we will have a stronger relationship 
with the flying public, who will be more of a participant in 
the process. A lot of our work, in terms of training and 
process, is designed to make it easier to go through the 
passenger screening process. We hope that over time that that 
will make it a hassle-free kind of environment.
    I look forward to discussing the rest of the issues with 
the Committee. Thank you very much.
    Mr. Costello. We thank you.
    And the Chair now recognizes Ms. Berrick.
    Ms. Berrick. Thank you, Mr. Chairman, Ranking Member Petri 
and Members of the Subcommittee, for inviting me here to 
discuss TSA's progress in securing commercial aviation, a 
needed focus moving forward.
    As you are aware, since its creation, TSA has taken many 
initiatives to strengthen aviation security and should be 
commended for these efforts. With respect to progress, we find 
that TSA has had the most significant achievements in the 
following four key areas: hiring, deploying, training, and 
measuring the performance ofits aviation security workforce; 
expanding workforce security initiatives, including the 
behavior detection officer and travel document checker 
programs; developing, implementing and testing risk-based 
procedures for screening passengers and their baggage; and 
deploying systems to screen checked baggage for explosives and 
developing a strategy to achieve optimal screening solutions.
    For example, we reported that TSA developed a number of 
robust training programs for transportation security officers, 
or TSOs. TSA also established a sound approach for determining 
TSO allocations at airports, and effectively balanced security 
with throughput needs, and making modifications to checkpoint 
screening procedures.
    However, we found that other key areas need continued 
attention, both in the short and long term.
    First, TSA has made progress on a number of fronts in 
securing air cargo and is pursuing a plan to meet the 
congressional mandate to screen 100 percent of cargo on 
passenger aircraft. However, TSA has put less focus on the 
security of cargo transported into the United States from 
foreign locations, has made limited progress in piloting and 
deploying technologies to screen cargo, and will likely face 
resource challenges in ensuring that air cargo entities are 
compliant with 100 percent screening requirements.
    Second, it is important that TSA finalize initiatives to 
secure airport perimeters and access to restricted airport 
areas. Although TSA has completed technology pilots and issued 
guidelines for biometric identification systems, it has not yet 
determined how or when it will require the implementation of 
these systems nationwide.
    In addition, TSA has implemented a program to randomly 
screen airport workers and is making progress in determining 
how to mitigate the risk posed by these working through an 
ongoing pilot. However, the agency has not yet made final 
decisions regarding how it will address this key area of 
security.
    Third, with regard to checkpoint screening technologies, 
DHS and TSA have researched, developed and procured various 
technologies to detect explosives, and is in the process of 
deploying some new enhanced technology this year. However, to 
date, the agency has made limited progress in fielding emerging 
technologies due to performance, maintenance and planning 
issues, as well as coordination challenges with DHS's Science 
and Technology Directorate.
    Finally, although TSA has made significant progress in 
strengthening the development of Secure Flight, which is a 
Government-run program to match passenger information against a 
terrorist watch list, some challenges remain. These include the 
need for more sound program cost and schedule estimates, better 
management of program risks, and test plans that reflect 
complete systems testing.
    Finally, in conducting our work, we found that a variety of 
crosscutting issues have hindered TSA's progress. These include 
developing results-oriented goals and measures to assess their 
performance, integrating fully a risk-based approach to guide 
investments, and establishing an effective framework for 
coordination with stakeholders.
    As Mr. Hawley mentioned, TSA has placed attention on and 
continues to make progress in all of these areas. We are 
currently reviewing TSA's progress in these and other areas, 
and will continue to report to the Congress and the public on 
the results of our work.
    This concludes my opening statement. I look forward to your 
questions.
    Mr. Costello. We thank you for your testimony.
    Mr. Hawley, I mentioned in my opening remarks there are a 
few areas that we would like a progress report on.
    One, does TSA intend to issue a final rule by August the 
3rd concerning security regulations for foreign repair 
stations? Will you meet that deadline?
    Mr. Hawley. Our major effort now is to get out the notice 
of proposed rulemaking for public comment. It is an 
impossibility, physically, to get out a final rule by August 
3rd. So our efforts are, because of the way the process works 
and the notice and comment requirements, to let everybody 
comment on it.
    It is very important to note that the security measures do 
not necessarily await the rule. We have been working over the 
last year with the foreign repair stations to, first of all, 
hire our inspectors. We have now begun a process under which we 
have assembled the best practices from around the world and are 
urging that those be adopted by the individual repair stations.
    So the security level at the foreign repair stations is 
something that we are on top of. The rule needs to go through 
the process of public comment.
    I think, really, the best downpayment or the best evidence 
of action on TSA's part is getting the notice of proposed 
rulemaking out, because that will say, here is what the program 
is, or is proposed to be, and then the public can comment on 
it. It is now undergoing administration clearance, and our hope 
is to get it out as fast as physically possible.
    Mr. Costello. As it runs through the process, when would 
you expect the rule to be out and the process completed?
    Mr. Hawley. It is unknowable when the final clearance would 
come out of administration review because a lot of different 
parties have opinions on it, and these need to be resolved. It 
is complete in terms of the proposal; we are just working 
through, with the other agencies, their various comments.
    The result will be a well-balanced proposal. It is a slow 
process. One of the major issues overall in aviation security, 
is relying on rulemaking, which takes anywhere from a year and 
a half to 2 years, which is simply too long for security 
measures. That is why so much of our focus is on the 
partnership work to roll out the actual measures and then have 
the rule catch up.
    Mr. Costello. So on the security measures, you are moving 
forward. And, you know, there are people wondering, they don't 
understand the process, how long it takes, the input from 
various agencies along the way. You are moving forward with 
security measures. But in order to issue the rule, it could be, 
you are saying, a year to 2 years?
    Mr. Hawley. Well, no, fortunately we have been working on 
it considerably, but I am hoping that the proposed rule will be 
out this summer. That will set the timetable for issuance of 
the final rule, which is usually a matter of maybe 6 months 
from notice until the final rule.
    Mr. Costello. I figured if I said it would take a year to 2 
years, we would narrow you down to a specific time frame.
    Let me also ask, as you know, there have been several bills 
that passed the Congress post-9/11 that require the TSA to come 
up with a strategic plan for checkpoint technologies. According 
to what we have heard from the GAO, the agency has not 
submitted a plan.
    Number one, why has the agency not been able to deliver a 
strategic plan for checkpoint technologies? And two, when would 
you expect to develop such a plan?
    Mr. Hawley. Sir, it has, in fact, been transmitted to the 
Hill. It is something that has been long-awaited. I don't know 
the exact date, but I know it has been transmitted to the Hill.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T3755.010
    
    Mr. Costello. Would you like to comment on that, Ms. 
Berrick?
    Ms. Berrick. We have reported on TSA's security efforts 
related to checkpoint technologies. I wasn't aware that the 
strategic plan was submitted. I know that, in the past, they 
had submitted a plan that Congress returned and wanted 
additional details.
    But a couple of other points we made related to checkpoint 
technologies. One was coordination challenges that TSA and S&T 
have had since the R&D function was transferred to the 
Department of Homeland Security. They are working through some 
of those issues, but can further move forward in that area.
    And then secondly was some difficulties they have had with 
procuring and deploying some initial technologies that we felt 
were due to some planning issues, not fully completing some 
testing up front.
    But, like I mentioned in my opening statement, they are 
making a lot more progress this year, and there is going to be 
some new, emerging, better technologies coming out in 2008.
    Mr. Costello. I have other questions, but we have a number 
of Members who want to ask questions, so let me now recognize 
the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    And thank you for your testimony, Mr. Hawley.
    I guess I have kind of a general question. We love 
technology, and there are a lot of technical changes that are 
being made. But at the end of the day, it has to be a 
combination--it is a tool, and the morale and the alertness and 
the information that the personnel on the firing line get are 
probably most important.
    And it is my impression, as a frequent traveler, that the 
effectiveness and sensitivity of your inspectors at airports 
has gradually actually been improving, although it is not 
perfect and it probably never will be.
    And I wonder if you could discuss what you are doing to try 
to maintain the morale and alertness and quality and 
sensitivity of the inspectors to the whole variety of the 
traveling public.
    And secondly, discuss some of the new technologies that you 
are working with, what you hope to achieve with them, 
particularly in the somewhat sensitive area of the body scan 
technology and what procedures you are doing to make sure it is 
as accommodating to sensitivity as possible and also why it 
could be helpful.
    Mr. Hawley. I think you have made a very important point, 
which is that the human brain is the most sophisticated 
technology that we know of. We have already paid for it, in the 
sense of having the officers already out there. So the most 
important technology upgrade is to make sure we are taking full 
advantage of the officers and their intelligence and their 
ability to apply it to the security effort.
    That is why, in addition to all of our normal training, we 
are taking every officer out of the system for 2 days--2 full 
days--of training, to exactly get at the point of: Here is the 
latest intelligence; here is the latest technology that 
terrorists use; here is our latest technology; here are the 
ways to avoid the social engineering and the so-called head-
fakes of people who might be trying to get past us; how to make 
sure that we are focused on the job, and how to keep the 
checkpoint environment calm and help passengers who just want 
to get through calmly. That is a very important security 
technology that requires very little cost to improve.
    On the other side, the electronic/mechanical technology for 
a personal search, we have what is called the whole-body 
imager. We have a technology called Millimeter Wave that is 
essentially radio waves that bounce off the body and give us a 
reflection of anything that could be stored on it. Given the 
privacy concerns of so many people, we have separated the 
person who looks at the image, so they will never see the 
actual individual. The face is blurred and the image is not 
retained. So there is a wall between the individual and the 
image of the individual.
    That is a very effective technique. It is also far better--
90 percent of people prefer to have the quick image, 4 seconds, 
versus the physical patdown where the officer has to touch the 
individual. Our officers don't enjoy it any more than the 
passengers. That is a very sensitive process. It is faster and 
better with these whole-body imagers.
    So we are rolling out, as I mentioned, 120 of them over the 
next 2 years. So, by the end of 2009, we will have 120 out.
    The other important point, if I have another couple 
seconds, is that with the AT X-ray, it is a choice between do 
you get latest and the greatest emerging technology that tends 
to be most expensive and less reliable? Ms. Berrick was 
pointing to that earlier; I think it is a very valid point, 
that you have to balance getting the best, the fastest you can 
use, with getting something out there that is going to be 
effective and reliable. We have gone to a platform approach of 
buying technology that you can upgrade as the years go by 
without having to replace the entire box or, worse, add another 
machine at the end of it.
    Mr. Petri. Thank you.
    One really quick thing. Are the improvements that you are 
making in doing this more quickly increasing the possibility 
that we could do similar things--or are they being done--for 
train and cruise passengers and other situations where there 
are similar security concerns?
    Mr. Hawley. Yes, sir. Our officers, particularly the 
behavior detection officers, can go into any environment that 
is transportation-related. In fact, for the first time this 
year, we have been invited by other countries to participate 
with them to protect U.S. carriers in other countries. So it is 
a very, very flexible resource.
    Mr. Costello. The Chair thanks the Ranking Member, and 
would advise Members that if they would adhere to the 5-minute 
rule, so that we can get to as many questions as we possibly 
can before our witnesses have to leave.
    The Chair now recognizes the gentlelady from the District 
of Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Hawley, a helipad near Nationals Stadium continued 
after 9/11 for years. The helicopters were piloted by retired 
military officers. They carried people from various 
destinations, including diplomats. It was approved by the 
Secret Service. Then abruptly they were required to shut down.
    You know, in a market economy, if you ask somebody to shut 
down a business in effect, you ought to have a darn good 
reason. Were you involved in that decision, and what do you 
know about it?
    Mr. Hawley. No, and nothing more than what you described, 
except that I know we have an interagency process that involves 
the Secret Service and all agencies, really, to ensure the 
safety of the national capital region. There are circumstances 
under which helicopters are allowed. I would be happy to go 
back and figure out what the problem was.
    Ms. Norton. I would very much appreciate it, Mr. Hawley, 
because if there are circumstances under which they are 
allowed--they certainly are allowed everywhere else but the 
District of Columbia. And I am the first one to understand the 
importance of extra security here. But for that to remain 
unexplained in the Nation's capital and for you to know nothing 
about it is very troubling. Therefore, I ask you if you would, 
within 30 days, indicate to the Chairman what, in fact, 
happened. Perhaps, and I certainly hope, Homeland Security in 
some way was involved. If the Secret Service gave permission 
and all of a sudden, you know, the thing gets shut down, you 
wonder who is in charge of security.
    General aviation opened at National Airport only when the 
Chair of this Committee, the former Chair of this Committee, 
threatened contempt after 4 years. Now we ought to go back, I 
think, to that procedure. Because it opened, all right, but you 
can only take a plane into National Airport, a private plane, 
general aviation, if you go to a location outside, you before 
coming engage in mountains of paperwork, you have on the 
private plane an armed air marshal. It looks like they opened 
general aviation and then tried do everything they could to 
deter it and kill it. And they have just about done it, because 
they used to get 200 a month and now they get 200 a year.
    There is no other capital in the world which couldn't 
figure out how to get private planes and helicopters in. And of 
course New York, where 9/11 occurred, never shut down. Could 
you explain that to me, sir?
    Mr. Hawley. Sure. National Airport is less than 10 seconds 
away from this building. And----
    Ms. Norton. Secret Service knew that when it allowed the 
helicopter to continue to operate years after 9/11. What 
changed?
    Mr. Hawley. Exactly. Because there are security measures in 
place. That is all we are saying, is that we have a very open 
process for general aviation to get in and out of National 
Airport. They just have to take security precautions that are 
prudent because of the physical geography.
    Ms. Norton. The helicopter can no longer fly.
    Mr. Hawley. Well, I don't know about----
    Ms. Norton. There is general aviation, which is a disgrace, 
and then there is the helicopter, which was open and running 
with the permission of the Secret Service and can no longer fly 
into the Nation's capital, sir.
    Do you know anything about it? Were you involved in it in 
any way?
    Mr. Hawley. I think we have covered that. But the National 
capital region is subject to prudent security measures, given 
the number of important landmarks.
    Ms. Norton. Mr. Hawley, were you involved in the decision 
to cease--let me be more direct--to cease service by helicopter 
approved by the Secret Service? Were you involved in that 
decision to shut it down?
    Mr. Hawley. I am not aware of that decision. I should say 
we have a lot of helicopters, a lot of aircraft. We have 
general aviation aircraft flying all over the place.
    Mr. Norton. Well, you know what? I don't need a filibuster. 
Would you look into that matter----
    Mr. Hawley. Certainly.
    Mr. Norton. --as well?
    I mean, Mr. Chairman, for Homeland Security to know nothing 
about this is very troubling to me.
    One more question, because it would be for you, Mr. Hawley 
and Ms. Berrick. You said, sir, that there had been upgrade in 
baggage, in carry-on baggage. I am very pleased to hear that. I 
would like to know how it would change, how the upgrades 
specifically would change what a passenger experiences.
    For example, you indicate that you made progress on 
Registered Traveler. And I commend you for the way you have 
gone. You are ending the pilots; you are allowing that to 
spread. However, they have a thumbprint, and then they have to 
also show an ID.
    So my questions are, how will the average passenger know 
about the technology upgrade? Will it be in the speed that she 
gets through? What will happen? Where is the shoe scanner? And 
if there is a thumbprint, why do you need an ID, too? Since 
that is about the only technology I have seen come out of the 
administration which bespeaks the 21st century.
    Mr. Hawley. Very quickly on the Registered Traveler, we 
have worked with the industry, and they have stepped up and are 
making changes to the ID so they will be acceptable as Federal 
IDs. So that is taken care of.
    Mr. Norton. Will the thumbprint do it, or do you need an ID 
and a thumbprint?
    Mr. Hawley. Is it the same ID. And they agreed to put a 
photograph on the card. That issue I think has been 
successfully resolved.
    On what the passenger sees that is different, the AT X-ray 
that we have deployed at National Airport, for instance, allows 
the officers a better look at the images. Therefore, they can 
clear bags faster and not call as many bag checks. So it is 
better security, and it speeds up the process.
    Mr. Norton. And the shoe scanner?
    Mr. Hawley. The shoe scanner is going back and forth in the 
lab. We are deploying for data collection two shoe scanners of 
a different type than we have previously discussed for data 
collection near National Laboratories so that we can get 
another technology out there as well.
    Mr. Norton. Thank you.
    Mr. Chairman, this technology is proceeding, and it is 
proceeding, as you can see, with the shoe scanner, which has 
gone back and forth and back and forth far too slowly. But I am 
very pleased that we are about to make prescreening of 
passengers more readily available.
    Mr. Costello. The Chair would ask you, Mr. Hawley, to get a 
response to Ms. Norton's question to us as soon as possible.
    Mr. Hawley. Yes, sir.
    Mr. Costello. The Chair now recognizes the distinguished 
Ranking Member of the Full Committee, Mr. Mica.
    Mr. Mica. Thank you, Mr. Costello.
    And I am pleased to see Mr. Hawley back. I think the staff 
said it has been 2 years. Long overdue, but good to get an 
update. Let me run through a couple of things.
    First, you said, and I think you have also told us 
individually, that we still face having aviation as probably 
the highest terrorist threat. I think that is correct. Let me 
just do a quick checklist of where we are on some of these 
things.
    Last time we left you, most of the equipment that we have 
at the checkpoint is geared to a traditional threat, either 
taking a weapon through or a nitrate-based explosive. And the 
new threat, as I believe it is--well, our job is to keep the 
bastards from hitting us again and staying one step ahead of 
them.
    I have a couple of concerns. Well, I think one thing you 
have done and you could give us an update on is the document 
checkers. That was something we were transitioning out of. I 
remember inspecting the tests. How far complete is that 
transition to train the behavior specialists?
    Mr. Hawley. By the end of the year, all TSA checkpoints 
will have specially trained officers doing the identity check. 
And we have right now about 2,000 of the behavior detection 
officers, and we will continue to increase that until it gets 
about 2,400.
    Mr. Mica. Checked baggage--I am told 29 airports handle 75 
percent of the passengers, but we only have seven with full in-
line EDS. That is automated baggage detection equipment. Is 
that the case?
    Mr. Hawley. I believe it is.
    Mr. Mica. I guess it is just a lack of money?
    Mr. Hawley. Yes, sir.
    Mr. Mica. On the schedule we are on now, how long would it 
be before we get the 29 done? Guesstimate?
    Mr. Hawley. It will extend probably 10 years, would be my 
guess.
    Mr. Mica. The failure rate of the hand checking of the 
checked bags, is it still as high as it was? It was absolutely 
horrible the last time I was briefed.
    Mr. Hawley. We are making changes to the hand search to 
increase the effectiveness.
    Mr. Mica. Maybe you could provide the Committee----
    Mr. Hawley. Sure.
    Mr. Mica. --members, it doesn't have to be public, as to 
how bad that situation is.
    Technology, Ms. Norton talked a little bit about it. We had 
a little bit more control when we had authority over R&D. And I 
am looking at the figures now, which have dropped fairly 
dramatically. They also have been transferred to DHS Science 
and Technology Directorate.
    I am concerned that, again, staying one step ahead of the 
bastards, as I phrased it, that we may be losing some ground 
there. I don't know if you are going to tell us this publicly. 
But how much money is TSA getting out of the $77 million for 
technology R&D that has gone into DHS?
    Mr. Hawley. I think DHS has almost $800 million that they 
are applying to IED detection that helps the Secret Service, 
that helps Customs----
    Mr. Mica. How much?
    Mr. Hawley. $799 million, I believe, for fiscal 2008.
    Mr. Mica. The money I have for R&D, maybe this is wrong, 
the total money appropriated under DHS for checkpoint 
technology is $77 million.
    Mr. Hawley. I am describing IED technology.
    Mr. Mica. Right.
    Mr. Hawley. Right. So it is broader, it is a broader 
category that we can use in the checked baggage environment.
    And I would like to just hit on one thing you said at the 
beginning that I think is very significant. You said we have 
got the old x-ray at the checkpoint; what are you doing to stay 
ahead of the threat with novel explosives?
    Mr. Mica. Right.
    Mr. Hawley. That is where the AT X-ray comes in, because it 
is specifically upgradable to different chemicals, to 
nontraditional-type explosives. And that is why----
    Mr. Mica. Is that the Millimeter Wave you are talking 
about?
    Mr. Hawley. No, sir. That is the multi-view X-ray, where it 
has multiple power sources and then advanced algorithms.
    Mr. Mica. How widely dispersed is that?
    Mr. Hawley. Well, we have 300 out now, and we will have 600 
out by the end of the year. And our plans are to keep deploying 
that until all lanes are covered.
    Mr. Mica. Well, you know, I think I dragged TSA kicking and 
screaming to the Millimeter Wave. We put in the first bill R&D 
money, and some of that money got diverted. I am now concerned, 
and I don't know, you are under DHS now, but I am very 
concerned that some of that money is not going for things that 
will make a difference in staying ahead of the game. So we can 
get back on that. I just point that out.
    I do want to thank them, Mr. Chairman, too. I guess it was 
the end of last September, Mr. Petri and I and maybe you 
learned, and the Congress, country learned, about the treatment 
of our returning military personnel. And I guess they ended up 
in Oakland, which Oakland has sort of a unique reputation 
toward certain slants. I won't get into that.
    But we asked for an Inspector General review. That came 
back, and it appeared that Oakland was acting within the 
parameters of what was allowed. However, from that review, we 
did find out that there was no procedure or protocol, either 
with TSA, DOD, the charter carriers or others, for the 
treatment of our personnel. Our troops were left on the tarmac.
    I do want to thank TSA for working with DOD. Last week you 
signed a memorandum of understanding, so we now have a protocol 
that our men and women returning will be treated equally on 
those flights. That is the compliment.
    But we still do not have a resolution of our returning 
personnel. As you recall, I told you I was in Baltimore when 
some got off a plane, were forced to be rescreened, with all 
their gear and everything.
    We need to get an MOU on taking care of the returning 
military personnel through commercial airports individually or 
through those charters. That remains undone. I hope you will 
reach an understanding and some better accommodation of our 
troops.
    Mr. Hawley. It is my understanding the charter flights were 
covered by the agreement. And I would like to point out that 
almost a quarter of our officers are, in fact, veterans or 
serving currently.
    Mr. Mica. You are correct, charters were, but commercial 
travel was not. And we are looking forward to some resolution.
    Don't have time to get into biometric, but a nice biometric 
card for hundreds of thousands of people who are in law 
enforcement, who serve, who are cleared.
    I just went through Amsterdam again. On domestic flights, 
they have a thumb, you go through a turnstile, and you put your 
eye in, and people proceed to their domestic flight. I guess 
that wouldn't be possible in the United States.
    Mr. Costello. The Chair thanks the Ranking Member, and now 
recognizes the gentlelady from California, Ms. Richardson.
    Ms. Richardson. Yes, thank you, Mr. Chairman.
    My questions are primarily for Ms. Berrick.
    How many staff members do you have with TSA supporting our 
airports currently?
    Ms. Berrick. How many staff members are within GAO that are 
looking at TSA operations, or within TSA?
    Ms. Richardson. Within TSA.
    Ms. Berrick. I believe there is about 43,000 TSOs.
    Ms. Richardson. Okay. Are there enough?
    Ms. Berrick. We actually looked at TSA's process for 
determining the number of TSOs at airports and found that it 
was very sound.
    There were some assumptions in their model that we thought 
that could be improved. For example, it wasn't taking into 
account all of the training TSOs had to take. It wasn't taking 
into account the fact that TSOs are used for other duties.
    However, during the course of that review, TSA made changes 
and corrected those problems and are continually reviewing the 
assumptions that go into it. So we thought the process was 
sound.
    Ms. Richardson. So you are saying you believe there are a 
sufficient number.
    Ms. Berrick. We, based on----
    Ms. Richardson. I am not talking about the process, I am 
talking about the people. Do you feel that there is a 
sufficient amount of people who are working?
    Ms. Berrick. We have no evidence that there isn't. So, yes.
    Ms. Richardson. Okay. Thank you.
    Can you give us an update on the Registered Traveler 
interoperability pilot? I have seen several newspaper articles 
about it. But can you give us an update on when you can 
anticipate more of a launching through other airports?
    Mr. Hawley. Yes, ma'am. We announced, or we are about to 
announce today, a new step for Registered Traveler, which is to 
recognize the security benefits that it has in the ID area--and 
we just had a little discussion about that--that we are 
accepting it as a private-sector equivalent of a real ID once 
the photograph is put on it. That, I think, is a very, very 
valuable piece of security.
    We are also removing the cap that had existed on the number 
of airports allowed to be in RT. We are eliminating that cap so 
that it can go to as many airports as desire it.
    And we are also eliminating the fee. We have previously 
been charging $28 for the card. Given that we already do the 
watch list check for passengers every time they fly, we 
thought, in view of the way that check is done, that it was not 
worth adding a $28 fee on top for Registered Traveler.
    So those should be positive aspects that should allow 
Registered Traveler to go where the market takes it.
    Ms. Richardson. So when do you expect to have an updated 
list of which airports will utilize this program?
    Mr. Hawley. Well, it is a private-sector program. There are 
19 today. As soon as they go through the process, then they 
come onboard.
    Ms. Richardson. Can you supply the Committee with that?
    Mr. Hawley. Certainly.
    Ms. Richardson. Okay.
    Two other questions. The 9/11 Commission Act required TSA 
to screen 50 percent of all cargo. And it is referenced, Ms. 
Berrick, in your testimony. You reference several problems with 
potentially being able to achieve it.
    Is there a certain amount of money needed or--you state in 
here, "With respect to air cargo, we reported that TSA may face 
resource and other challenges in developing a system to screen 
100 percent of the cargo transported."
    So, resources and other challenges, does that equate to 
money? Or what is the problem?
    Ms. Berrick. The resources is equating to inspectors so 
that TSA can oversee whether or not these cargo consolidators 
and manufacturers are adhering to security requirements.
    And the other issue that we have identified is related to 
technology. There is a number of pilots under way looking at 
different technologies to screen cargo. One big pilot just 
completed, but a lot of them haven't yet been completed.
    We also found that the overall concept made sense on 
pushing the cargo screening further down the supply chain. Some 
other countries are doing that. It is just these particular 
issues can cause challenges for TSA as they implement the 
program.
    Ms. Richardson. How many additional screeners would you 
need?
    Ms. Berrick. We talked about that TSA has not identified 
what their needs were. But officials at TSA have told us they 
think they are not going to have enough. They will probably 
have to request additional inspectors to oversee these 
thousands of shippers that are going to be shipping cargo.
    Ms. Richardson. Okay. Could you advise this Committee of 
that number?
    Ms. Berrick. We don't have the correct number.
    Ms. Richardson. When you do get the number? And I don't 
mean to be brief, but I only have 38 seconds, and our Chairman 
asked us to stay within 5 minutes.
    Ms. Berrick. Our recommendation would be that TSA assess 
their needs and come up with an estimate on what they need.
    Ms. Richardson. Could you advise them that we have 
requested that, to know what that number is?
    Ms. Berrick. Okay. Yes.
    Ms. Richardson. Thank you.
    Last question. Sorry, I have 24 seconds. It is my 
understanding that the 9/11 Commission recommended the need for 
a hardening container to be on the aircraft. In my particular 
district, they happen to have produced that particular device.
    What is the projection, in terms of utilizing the hardened 
unit load device that it is my understanding TSA has tested and 
approved?
    Mr. Hawley. I believe that those units are currently still 
in testing. I will be happy to get back to you with more detail 
on that.
    Ms. Richardson. Okay. Thank you.
    Mr. Costello. The Chair thanks the gentlelady, and now 
recognizes the gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Again, thank you, Mr. Hawley and Ms. Berrick, for being 
here today, and particularly convey our thanks to the 
hardworking folks, whether they be air marshals or screeners, 
for the work they are doing. I know they are working really 
hard.
    I want to talk to you specifically about biometrics. There 
was a request by GAO and others a couple years ago for TSA to 
thoroughly look at biometrics and the potential for both 
security and efficiency there.
    Give us an update, if you will, on where TSA is.
    And then we will talk specifically about Southwest Airlines 
and the proposal that they have for a pilot project at BWI 
using biometrics for pilots.
    Mr. Hawley. Yes, sir. We are, as you know, with the so-
called TWIC program, Transportation Worker's Identification 
Credential, currently working in the port environment. TWIC is 
the lead and largest of the biometric programs.
    An interesting aspect of this, and one we have to keep an 
eye on, is that, once a biometric is taken and applied, we are 
freezing an identity in time. If we don't ensure that we do the 
work up front to make sure that the person whose fingerprints 
we are taking is, in fact, who we think it is--that is a key 
part.
    So, for us, the priority, particularly in the aviation 
environment, is make sure that the badging offices or the 
employers are getting it right, that in fact the person whose 
name is on the card is indeed the person. Once you lock that in 
with the biometric, if you have missed up front, you have 
somebody who could be in the system for good with a biometric.
    So the first priority is to lock down who the person is 
that is getting the biometric. Second is to get an 
interoperable standard that can be used across the system.
    Mr. Hayes. Well, certainly the biometric is more reliable 
than the person that you see every day. I am thinking of Jay 
Leno's picture in the paper the other day; how would he do at 
the airport screening?
    But what you would think--and, Ms. Berrick, I would love to 
have your comments in a minute--but specifically Southwest and, 
I am sure, other airlines and the Airlines Pilots Association I 
am assuming are in agreement with coming up with some type of 
pilot program to test how well this works. It does seem to have 
tremendous potential.
    Mr. Hawley. It does, indeed. We support it, and we are 
working closely with the airline pilots and Southwest and other 
airlines.
    I would also like to point out that in law enforcement, 
there is an additional opportunity, and also with the 
Registered Traveler program. All of those are in different 
populations but take advantage of the possibilities of 
biometrics.
    Mr. Hayes. When are you going to launch that project at BWI 
or somewhere else?
    Mr. Hawley. I believe it has launched for the pilots.
    Mr. Hayes. Is it in effect now?
    Mr. Hawley. I believe it is, but I will check with my 
experts.
    Mr. Hayes. Okay.
    Ms. Berrick, do you have any comments on the potential 
here?
    Ms. Berrick. We haven't looked specifically at biometrics, 
other than to say it hasn't been implemented nationwide at the 
airports. TSA is working with private-sector partners to 
refine, and they have refined, standards for biometrics. But in 
terms of nationwide implementation, it hasn't yet happened, as 
you are aware.
    Mr. Hayes. From your perspective, what type of testing, 
pilot project or whatever, would give you the information and 
comfort level that you need to look at a more broad application 
for it?
    Ms. Berrick. Well, we would look at it from the standpoint 
of, what is TSA's strategy for moving forward with this? And 
part of that is testing.
    And where they are right now is still defining the 
standards. They are doing some piloting, looking at some 
different options.
    But I think the first step is developing a strategy on the 
different efforts they are going to pursue. And then we would 
monitor that. So that would be the first step.
    Mr. Hayes. Now, am I correct in thinking that law 
enforcement in various areas is successfully using this day to 
day and have been doing it for some time?
    Ms. Berrick. I am not aware of that.
    Mr. Hayes. Well, that is my understanding, to make sure 
that we are not--favorite term--stovepiping and missing an 
opportunity here; again, relieve some pressure on the system 
and increase the level of security as well.
    Mr. Chairman, thank you. A very important part of our 
future in the era of terrorism, and I hope we will aggressively 
and properly pursue that. And thank you.
    Mr. Costello. The Chair thanks you, and recognizes the 
gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    And thank you, Secretary Hawley and Director Berrick, for 
being here.
    I would start off by saying that, accepting the premise 
that aviation is still at the top of the list of targets of 
terrorists who would like to attack us, I would request another 
one of those classified hearings that Secretary Hawley 
mentioned, because most of the questions I have, actually, I 
think should be asked in private. And I think we need to be 
careful about what measures we talk about that we are taking. 
So that pares my question list down a little bit.
    Secretary Hawley, is the TSA on track to meet the 
requirement to screen 50 percent of air cargo by February 2009?
    Mr. Hawley. Yes.
    Mr. Hall. What progress has TSA made in coordinating with 
Customs and Border Protection to enhance the security of air 
cargo transported into the United States?
    Mr. Hawley. Our efforts are primarily with our foreign 
partners and other airlines so that the requirements that they 
have on carriers as they load in foreign countries coming to 
the U.S. are equivalent to ours.
    So, in fact, that is the primary venue for getting the 
problem solved, and that is progressing well. In fact, I am 
leaving this weekend for a meeting with my counterparts around 
the world on exactly that topic.
    Mr. Hall. And what extent will canines play in TSA's 
ability to meet the requirement to screen 100 percent of air 
cargo? And how do canines compare with other technology, such 
as swabbing for explosive residue?
    Mr. Hawley. We have an additional 170 canine teams coming 
into cargo in addition to the 100 already dedicated to cargo. 
It is 400 canine teams at 25 percent, so a quarter of their 
time is air cargo. And it is the equivalent of 100 canine 
teams, plus the 170 that we are adding. So it is a significant 
resource, given that two-thirds of air cargo is at 18 airports.
    How effective they are is excellent. They are not only 
effective, but obviously they are mobile. We find that the 
canine explosive detection capability is really one of the best 
measures we have because of its flexibility and the ability to 
train them on different explosives as need be.
    Mr. Hall. Ms. Berrick, based on your testimony, what is TSA 
doing to secure the transport of cargo transported into the 
United States from foreign countries?
    Ms. Berrick. They are taking some positive steps. We think 
more can be done.
    On the positive side, TSA is working, as Mr. Hawley 
mentioned, very closely with foreign partners and have made 
changes to accept foreign security practices for securing 
cargo, which we think is a positive step. TSA has also 
increased screening requirements and plans to increase further 
screening requirements for cargo coming into the U.S.
    However, less is being done for inbound cargo than what is 
being done for cargo domestically. For example, there are 
exemptions in place for certain cargos that doesn't have to be 
screened. Vulnerability assessments, the state of security for 
this cargo hasn't yet been conducted.
    So we think more can be done, but there are positive steps 
to strengthen security in that area.
    Mr. Hall. And as TSA collaborates with other countries and 
with the air cargo carriers, to what extent are you concerned 
or are you taking measures to require background checks to make 
sure that the people we are dealing with on the other end of 
the shipment are reliable?
    That is for both of you, please.
    Mr. Hawley. For the foreign countries and the background 
checks they do on their individuals, they do have requirements. 
There are difficulties in the system because of individuals 
moving around from different country to different country, and 
accessing village records from another country is difficult. So 
they have that one aspect, but they have a lot of other layers 
in addition to go after the insider threat. But I think the 
issue that you raise is one that we focus on as well.
    Ms. Berrick. That is my understanding as well.
    And one other point. TSA does do inspections of foreign 
carriers in airports with service in the United States. And 
they look at some of those requirements, including background 
checks as part of those.
    Mr. Hall. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman.
    And Mr. Hall made the point about questions that he has to 
be asked in a closed, classified session. And, as I think many 
people may or may not know, we meet on a quarterly basis. We 
met in April, June; we will be meeting again in the fall to get 
updates. But there are a number of questions that I think Mr. 
Hall has and other people have that will have to be asked in 
closed session.
    The Chair now recognizes the gentlewoman from Oklahoma, Ms. 
Fallin.
    Ms. Fallin. Thank you, Mr. Chairman.
    Good to see you again, and thank you for both of you coming 
today.
    I have been concerned about our Federal Government agencies 
and the price of fuel costs. And I am sure, just like many of 
our other agencies, that you have had to make adjustments in 
your budgets because of buying fuel. Can you address that for 
us?
    Mr. Hawley. The principal area it affects us is in employee 
costs, because a lot of our employees commute significant 
distances.
    Obviously, the state of the airline industry is of great 
concern to us, in terms of how it affects the number of 
passengers flying and all aspects of aviation security.
    So our principal effort is to try to run our operation as 
efficiently as possible, reducing costs not only for ourselves 
but for partners in the airlines and the airports.
    But I think this is a very significant issue we will face 
in the coming months.
    Ms. Fallin. Have you seen some changes or have you made 
adjustments in your staffing levels because of the airlines 
having decreases and having to make adjustments in their 
flights and their passenger loads?
    Mr. Hawley. Yes, we have. There are a number of small 
airports where service is discontinued, which eliminates the 
need for TSA folks there. So we either redistribute those folks 
or make arrangements for them to move on.
    Ms. Fallin. We have been very fortunate since 9/11 not to 
have an incident like we had back years ago. And thank goodness 
we have agencies in place like yours to protect our airlines 
and our travelers.
    But I worry at times that our traveling public may become 
comfortable with the current situation because we have done 
such a good job of making sure that we are inspecting cargo or 
checking passengers or installing new equipment and new 
detection methods.
    And I know you can't divulge classified information, but 
how secure should our public feel? And is there anything that 
you could say to the public that might tell them that we 
shouldn't be letting up our guard yet?
    Mr. Hawley. Yes. I would say, we should not be letting up 
our guard yet. I would also say that we don't mind the fact 
that it is not top of mind for the traveling passenger. That is 
our job. We do it full-time, around the world, 24 by 7, and 
with a great deal of intensity.
    What we ask of the passenger is to participate with us; to 
be alert and help as required.
    We don't want it to be something that dominates thinking, 
but the entire Intelligence Community, the entire Department of 
Defense, the FBI, everybody in the Government is working very, 
very hard around the world to protect Americans. So it is 
something that we do top of mind, and we hope passengers can 
enjoy their travel, but participate with us in an active way.
    Ms. Fallin. So would it be fair to say that there are still 
ongoing threats out there that we are not able to divulge to 
the public, but that we still need to keep our guard up?
    Mr. Hawley. Yes, ma'am.
    Ms. Fallin. Thank you.
    Mr. Costello. The Chair thanks the gentlewoman, and now 
recognizes the gentleman from Wisconsin, Mr. Kagen.
    Mr. Kagen. Thank you, Mr. Chairman.
    And thank you for being here, Ms. Berrick and Mr. Hawley.
    If I read your reports correctly, the TSA funding for 
aviation security has totaled about $26 billion since 2004; is 
that correct?
    Mr. Hawley. It may actually be higher than that. But it 
depends exactly what you count, but ballpark, yes.
    Mr. Kagen. Ms. Berrick, is that about right?
    Ms. Berrick. Yes, since 2004. I think TSA's estimates were 
going back to 2001. But, yes, right in that ballpark.
    Mr. Kagen. So at least $26 billion has been spent. And I 
also understand from the reports that the TSA believes it will 
take to August 2010 before 100 percent of the cargo that will 
be traveling on planes carrying passengers will be inspected; 
is that correct?
    Mr. Hawley. Yes, sir, as required by the 9/11 Act.
    Mr. Kagen. And is that a date that is going to be moved up 
at all?
    Mr. Hawley. We are focusing on the February 2009 deadline 
to get 50 percent of air freight. I think it is important to 
know that, by weight, maybe you get 50 percent, but we are 
talking about covering over 80 percent of the flights. We are 
very focused on all vulnerabilities, including air cargo. So we 
will meet the deadline in February and then progress toward the 
one in August 2010. But it is a very significant level of 
security that is already there.
    Mr. Kagen. Ms. Berrick, in a few moments, could you comment 
as to what they could be doing differently to speed this 
process along, if anything?
    Ms. Berrick. Well, first of all, it is a huge effort and 
undertaking and will require a lot of effort, which TSA is well 
aware of and are moving forward with that. And, again, the 
concept has worked in other countries, in terms of having 
shippers do the screening.
    Two points I would make; one is related to the number of 
inspectors that TSA needs to oversee this massive operation. 
There are questions about whether or not they are going to have 
enough. And the second area is related to technology. There has 
been some technology pilots going on for years. Some of them 
have been completed, but most of them have not. So I think it 
is important to complete those pilots and identify the 
technologies that will be able to be used during this screening 
process.
    Mr. Kagen. Okay.
    And, Mr. Hawley, I am going to give you an opportunity to 
comment about a portion of the report from Ms. Berrick, which 
reads, in part: "The TSA did not have a strategic plan to guide 
its efforts to acquire and deploy screening technologies and 
that a lack of a strategic plan or approach could limit TSA's 
ability to deploy emerging technologies at those airport 
locations deemed at highest risk."
    What have you done since reading her report, and what has 
been going for the past 12 months, given the fact that you do 
have over $24 billion, $26 billion at your disposal?
    Mr. Hawley. Right. So the plan is done. Very simply, it is 
the layers of the training that I talked about for our 
officers; the AT X-ray with liquid bottle scanners for checking 
bags; Millimeter Wave with potentially backscatter technology, 
as well, for the body; and a lot of communications capability 
to connect the behavior detection with identity verification, 
and with the physical screening.
    So that is it in a nutshell. But, as we were discussing 
earlier, it involves the human factor of behavior detection, 
plus identity verification, plus physical screening.
    Mr. Kagen. I thank you very much. And I will have 
additional questions in secure session.
    I yield back my time. Thank you.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Texas, Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I am certainly glad to be here, and I notice that the 
aviation safety upgrade bill passed while seven of us were in 
an emergency situation, and it did pass unanimously while we 
were gone. So maybe that was a motivation for it. But I do want 
to thank you for this hearing.
    Thank you for being here.
    Mr. Hawley, I have several questions for you, and I would 
like just brief answers without explanations, if possible.
    How many Federal air marshals were hired with pre-existing 
misdemeanor criminal convictions on their records?
    Mr. Hawley. I would have to check it, but I believe it 
could be zero.
    Mr. Poe. All right. Well, I want you to check it, if you 
would.
    Mr. Hawley. Yes.
    Mr. Poe. And I would like all of these, if you don't have 
the answers, correct answers----
    Mr. Hawley. You know, I think they were at least 
identified, and there may have been ones that they were, after 
investigation, reviewed and waived. So I think that is probably 
the answer. I don't know the number, but I will find it out.
    Mr. Poe. I would like know how many were convicted with 
knowledge, not how many that were convicted and you all waived 
the conviction and hired them anyway. That number, you said, 
was zero. So how many were convicted and you went ahead and 
hired them? That is the really the question. Misdemeanor 
convictions, criminal records.
    And how many Federal air marshals have been found guilty of 
misdemeanor crimes after they were hired and were allowed to 
stay employed with the Air Marshal Service?
    Mr. Hawley. Every one of those was reviewed, and----
    Mr. Poe. How many was the question.
    Mr. Hawley. Well, I would have to get you the exact 
numbers. But when it does happen, it is disclosed, reviewed, 
and discipline is taken commensurate with what happened. If it 
happens and is not disclosed, they are removed.
    Mr. Poe. But you don't have a number of how many?
    Mr. Hawley. Not off the top of my head.
    Mr. Poe. Okay. On all of these questions, I would like an 
answer in writing within a week to me and to the Chairman of 
the Committee. With all of your electronic equipment, you are 
bound to come up with these answers in a very short period of 
time.
    How many instances has the TSA allowed Federal air marshals 
to receive full pay while they were on some criminal court 
probation?
    Mr. Hawley. What happens is, if somebody is subject to that 
process, they have the same rights as any other citizen----
    Mr. Poe. Excuse me, sir. I know what their rights are. I 
used to be a judge forever. But I just want to know how many 
people we are talking about; that is the question.
    Mr. Hawley. I would have to get the number. I know there 
are a few in the Houston office.
    Mr. Poe. About five or six, would you say?
    Mr. Hawley. I was under the impression it was three, but I 
will further confirm.
    Mr. Poe. You can confirm, and we will find out in a week.
    The Federal Air Marshal Service, if I understand, 
distributes cash awards every year to air marshals. How is it 
decided who receives that money?
    Mr. Hawley. It is performance-based, I believe by the field 
office involved.
    Mr. Poe. So, like, the field office in Houston would make 
that decision?
    Mr. Hawley. For the individual Federal air marshals, I 
believe so. Then it is reviewed as it goes up the chain.
    Mr. Poe. How much money are we talking about? I mean, are 
we talking about a coupon to go to Wendy's for a hamburger? Or 
how much are we talking about here?
    Mr. Hawley. I would have to get back to you on that. One of 
the issues we have is the pay-for-performance system for 
Federal air marshals. That is something I hear about all the 
time when I see Federal air marshals. It is clearly something 
we want to build into the system. That is one of Bob Bray's 
primary initiatives. He is the new Federal air marshal 
director.
    Mr. Poe. I would like that in writing as well.
    Two more questions. If cash awards are allowed for good 
service, in your opinion, is it acceptable to give a cash award 
to an air marshal who is on probation for DWI, driving while 
intoxicated?
    Mr. Hawley. My first reaction would be a head scratch, but 
I would have to get back to you. That would raise eyebrows at 
least.
    Mr. Poe. Because you know that did happen in the Houston 
area. I am giving you the information about that. So would that 
be a little bit inconsistent, would you think?
    Mr. Hawley. I will take a look. Without knowing the facts, 
it is certainly worth a look.
    Mr. Poe. Just your opinion, do you think the Federal Air 
Marshal Service has a problem with the issue of air marshals 
drinking and driving? I am not talking about drinking and 
flying; I am talking about drinking and driving.
    Mr. Hawley. No, I do not. We have put out counseling across 
the entire system on that subject to retrain. They are, I find, 
to be excellent across the board. You had a FAM team on the 
flight that was diverted.
    Mr. Poe. Two on there.
    Mr. Hawley. Absolutely. Yes, sir.
    Mr. Poe. They do a good job.
    Mr. Hawley. They do.
    Mr. Poe. The Air Marshal Service, as far as I am concerned, 
do an excellent job. But there is a concern I have, obviously, 
about when they drink and drive and they are convicted and they 
are put on probation and they still work for the Air Marshal 
Service and they keep coming back, why does that occur.
    We had an individual--Dino Stamos was hired with the Air 
Marshal Service in 1998 with a DWI offense on his record. In 
2008, he pleaded guilty to a second DWI offense, received 15 
months probation. I would like to know what his status is with 
the Air Marshal Service. Can you give me that information? 
Eventually? Like, 1 week from today, in writing to me and the 
Chairman, I would appreciate it.
    And, like I said, generally speaking, I think the air 
marshals do an excellent job on those airplanes. But there are 
some concerns about criminal violations while they are in air 
service and then what happens to them when they are on light 
duty, still receiving full pay. I am somewhat concerned about 
all of that.
    My time has expired. I want to thank the Chairman for his 
indulgence.
    Mr. Costello. I thank the gentleman, and would ask Mr. 
Hawley to respond to the questions that Mr. Poe has posed in 
writing to the Chair. And the Chair will get it to Mr. Poe.
    Mr. Hawley. Yes, sir.
    Mr. Costello. The Chair now recognizes the distinguished 
Chairman of the Full Committee. And before I do, let me 
congratulate him on passing another two very important bills 
this week--actually, one out of the House on Tuesday, the 
aviation safety bill, which is an extremely important bill, not 
only to this Committee, but to the industry and to the 
traveling public; and also the bill that he brought to the 
floor last night, I don't know the exact title, but the 
national bridge safety bill, which will standardize inspections 
and provides a billion dollars to States to address some of the 
pressing needs with bridges in this country.
    I mentioned to Chairman Oberstar, I was over on the other 
side of the Capitol this morning with my senior Senator, 
Senator Durbin. He does a weekly town meeting with people who 
are in town from Illinois. And I talked about aviation safety 
and a number of other things.
    And when I told him some of the bills that we were passing 
and told the people in attendance, he turned to me and he said, 
"I think your Committee is passing more legislation than any 
Committee in the House." And I said, "We are." And one of the 
reasons we are is because of the leadership of Chairman 
Oberstar.
    So I recognize you for as much time as you may consume.
    Mr. Oberstar. I thank the Chairman for those good remarks, 
but that success story is because we have great Subcommittee 
Chair leaders and we have great Members on both sides of the 
aisle and we have good, outstanding bipartisan cooperation and 
participation and inclusiveness, that we have achieved that 
extraordinary record.
    And I appreciate the questions offered by the gentleman 
from Texas, Mr. Poe. The Committee did arrange a briefing on 
the issue of the DWI incident in Texas for the gentleman and 
for his staff. And thank TSA for sending their principal 
personnel in for that meeting.
    But the ironic history of the Air Marshal Service is that, 
after incidents in the late 1960s, 1968, 1969, the Federal 
Aviation Administration determined that it was necessary to 
have non-uniformed personnel onboard aircraft, armed, as a 
Federal Air Marshals Service, and established that service by 
Executive order, which was signed into law by President Nixon 
on September 11, 1970. What an ironic date.
    I want to compliment you, Mr. Secretary. Under your 
management and leadership, TSA has made a quantum leap forward 
in quality and effectiveness of security at the Nation's 
airports. You have taken a very complex law with very rigorous 
directives and deadlines, and then-Under Secretary Michael 
Jackson and Secretary Mineta met those deadlines in the time 
frame that the Congress set against all odds, all the "oh, my 
goodness," all the wringing of hands.
    Hardly was the ink dry on the President's signature on the 
law that the airlines were lobbying Congress to ease off the 
restrictions. It is clear those things that I tried to do, to 
incorporate into law in the aftermath of Pan Am 103--I served 
on that commission, as you well know, along with our good 
friend and former colleague, John Paul Hammerschmidt, a Member 
of this Committee, the Ranking Member.
    It took a tragedy, a second tragedy of much greater 
complexity to jolt the Congress, the Nation into accepting a 
much broader, more inclusive, more intensive security program. 
And you have continued to move it forward.
    I think you have made progress, first and foremost, in 
personnel. Compared to pre-September 11 security system, with 
the airplanes hiring the personnel on lowest-bid contract, with 
below minimum-wage or barely at minimum-wage payment, and 400 
to 600 percent turnover at airports throughout country, you 
have achieved great stability in the TSA personnel. They are 
proud of their work. They have a sense of accomplishment, take 
their work seriously. And I use every opportunity at every 
airport I travel to--and it is a lot of them, a lot of 
different airports--to compliment them on the service they are 
providing to the traveling public.
    With this bit of time, 7 years that have passed, it is hard 
to think back and remember a time when passengers would not 
have gotten on airplanes if we had not made the commitment to a 
much more rigorous aviation security system.
    You made progress in technology. I look over the list of 
equipment that is in place and the equipment that is undergoing 
testing in the marketplace, if you will, at the airport check 
points: the portable screening equipment; more use of biometric 
access technology; the trace detection technology.
    I think back, in 1985 and 1986, when the then-FAA was 
testing a thermal neutron analysis machine. It was the million 
pounds of weight because of the lead and the steel to protect 
employees from the nuclear radiation. Unfortunately, as 
sophisticated it was, it couldn't distinguish between laundry 
detergent, wool, and plastique, one of the most sophisticated 
types of explosives. They all had nitrogen. You have moved way 
beyond that era by aggressively moving out.
    I think TSA deserves credit, deserves recognition for the 
accomplishments, rather than dwelling on problems here and 
problems there. They have to be addressed; all of these issues 
have to be. The ones that Mr. Poe raised are serious, and you 
will provide the answers, I know, in the time frame that he 
requested.
    But such things as bottle liquid scanner technology--at a 
closed hearing I conducted in 1986, I think it was, 1987, we 
heard testimony from a aviation security person at FAA that, in 
cleaning an aircraft between flights, airline personnel found 
in the overhead luggage compartment a bottle that looked like 
gin, partly used. They took it out and submitted it to aviation 
security, and they found it was a bottle of nitroglycerin. 
There was no way to test it, no way to check it out. Nobody 
knew what it was. They couldn't even the find the person who--
was it someone in that seat or another seat or what happened? 
There was no way to check it.
    And now you are moving on--I mention this because these are 
very complex issues to deal with. Very hard to detect certain 
kinds of explosive materials. And the technology such as trace 
detection technology or the whole-body imaging, whose genesis 
goes back to 1987, 1988, 1989--I saw demonstrations then of 
this technology, where you stepped into a device, looked like a 
mummy case, and it sucked the air through the--well, now that 
is being tested out here at National and other airports, but it 
has come a long way. And it seems that the terrorists are--they 
used to be a step ahead of us, or two or three steps ahead of 
us. And I think we are now at the same pace they are, maybe a 
step or two ahead of the terrorists.
    It is your challenge to stay--but I do have a question from 
my organization, the "league of metal implant air travelers." I 
have recyclable materials in my neck and in my hip. And I set 
that alarm off. And I know that there are lots of others. In 
fact, not too long ago, the fellow just behind me, as I said to 
the agent, "My hip will alarm," and he looked at me and he 
said, "I have two of them." "You too?" "Yes." So we both went 
through the scan.
    And there was a very thoughtful meeting with your staff. I 
think Ms. Berrick was there. And then there was to be issued a 
new practice at the end of June--but it didn't happen--to 
accelerate, to have an abbreviated screen of implant travelers. 
And I arrived at National Airport and said, "Oh, today is the 
day when you are going to launch the new"--this was the day 
after--2 days after June 30th, yeah, because I was just going 
home for the 4th of July--and they said, "What new system?" And 
I described it, showed them my BlackBerry, and, "Oh, no, we 
haven't heard anything about this. We know nothing about this." 
And it wasn't in Minneapolis, it wasn't in Duluth, and it 
wasn't anywhere I traveled. What happened?
    And, secondly, can you develop a biometric for the about a 
million or so air travelers who have metal body parts that set 
off the alarm and cause an additional 5 to 10 minutes of time? 
Especially the wait time when the "male" alert goes out and you 
are waiting for someone who is free to come and do the body 
screen.
    Tell me what happened.
    Mr. Hawley. On the change in the Standard Operating 
Procedure, that is now in effect everywhere. It will expedite 
the members of the "league of metal implants." What they will 
do is, rather than do the entire process, they will do the area 
that alarmed, unless there is a random element. So what perhaps 
should have been in place on July 2nd is in place today and 
will be going forward. I think it preserves our security and 
will make it a lot easier on the increasing number of 
passengers with metal implants.
    On the biometric, we still would have a need to resolve if 
there were something else in the area. I think biometrics 
generally as an identity verification is an excellent security 
measure, but we have to still resolve whether there is anything 
else there.
    And these portals that you mentioned, the whole body 
imagers, are very effective and very fast method with no touch. 
That, as you know, is something that we are rolling out 
significantly. By next year, we will have 120 of them out. We 
are already going to get 30 out this year.
    Mr. Oberstar. I wasn't aware that you were getting that 
many. That is good.
    I am not asking for an exemption of any kind for metal 
implant travelers. As I have talked with the knee folk and the 
hip folk and the neck folk and the rest us that have--the Mayo 
Clinic has done 110,000 body implants, so I know that there are 
a lot of them just from that facility. And they all say, "We 
just want to be treated like everybody else. Just because of 
our hip alarms or our knee alarms, we shouldn't have to go 
through this whole process." And sometimes they are late and 
they are going to have a close call with their flight.
    And that comes to the second point. A few years ago, the 
Appropriations Committee, I think 4 years ago, the 
Appropriations Committee put an arbitrary cap on TSA personnel, 
45,000--and somehow, in their wisdom, they thought this was the 
right number--and then funded it only to 42,000.
    What are your real needs in personnel? And I ask the 
question based on random comments I get from TSA personnel 
saying, "We don't have enough time for training and retraining. 
We don't have enough time away, because there aren't enough 
backup personnel, time away from duty where we can do other 
things or training or just get a respite."
    So what do you think are the real staffing level needs of 
TSA?
    Mr. Hawley. I think we are about right where we are. The 
cap no longer exists, so when we do our budgetary presentations 
and discussions, we are not constrained. Secretary Chertoff 
does not constrain us on our budget process. He asks the 
question, what do you need to do the job security-wise? When we 
determined that we needed to close the vulnerability on the ID, 
we said we needed some more officers to be able to do that, and 
that was adopted in the budget.
    However, the interesting thing is that our officers_by 
reducing unexcused absences, by reducing injuries, through 
better scheduling, through a number of things that our officers 
have been able to do_have created an efficiency that has funded 
about 6,000 slots. So our officers, through just their own 
focus, have increased our ability to do other security measures 
within existing resources.
    So I think right about now we are good for 2008 and, I 
believe, 2009. Then 2010 obviously will be the purview of the 
next administration.
    Mr. Oberstar. What are you going to do with the Registered 
Traveler Program? I signed up for that just as an experiment 
about 3-plus years ago at Minneapolis-Saint Paul Airport. And 
it was in operation for a while, and then it disappeared. And 
we heard, the Committee heard from business travelers there was 
no advantage for them in signing up for and going through 
background screening, because all they did was go to the head 
of the line and go through the screening process. And I stopped 
doing it because at Minneapolis-Saint Paul Airport they would 
say, after I did the retina scan, they would tell the other 
folks, "Would you step aside and let the gentleman through 
here?" And they would say, "Oh, Congressman Oberstar gets 
through, eh?" Not a very good image for the rest of the place.
    Mr. Hawley. We have been doing a pilot that was capped 
previously at 20 airports and we are now at 19. Today we are 
announcing that we are removing that cap, because of exactly 
the point you raise, about what we call the security threat 
assessment. Because of clean-skin terrorists or terrorists who 
do not have criminal records or are not watch-listed, we can't 
give a free pass for that.
    Given the checks that we do on every passenger, we also are 
removing the $28 fee. So the effect of what we are doing is 
eliminating the cap on airports and cutting the price by 28 
dollars. That will allow the market to determine how many 
airports wish to have it, and it will take it wherever it takes 
it.
    Mr. Oberstar. Is this going to be a public-private 
partnership?
    Mr. Hawley. Yes. In fact, it is principally now a private-
sector program, and the security value is in the ID, the 
biometric ID. We view that as significant. In fact, we are 
looking at it, when the photo is on the card, as being a 
private-sector equivalent of a real ID.
    Mr. Oberstar. But those personnel who carry that ID will 
not be exempted from the screening. They will go through the 
metal detector, their luggage will go through the screener, and 
if alarmed, they will be further screened?
    Mr. Hawley. Yes, sir.
    Mr. Oberstar. Okay. Thank you.
    Mr. Chairman, I will not prolong any further. I appreciate 
the testimony.
    Mr. Costello. Thank the Chairman of the Full Committee.
    And now the gentleman from North Carolina, Mr. Coble, is 
recognized.
    Mr. Coble. Thank you, Mr. Chairman. I had two other 
hearings that conflicted, so I was late arriving, Mr. Chairman, 
and these questions may have been addressed.
    But, Mr. Hawley, let me ask you this. Will the procurement 
of Millimeter Wave technology meets the agency's stated need 
for primary screening technologies?
    Mr. Hawley. I believe it can. We are currently using it in 
what we call "random continuous," which is not to have every 
passenger go through it. But we are finding that, with more 
experience, our officers are able to get a clear picture and 
make a decision within times that might make it possible to do 
for all passengers.
    But your point about primary screening, I think, is very 
significant. And we are using it in that way.
    Mr. Coble. Good. Glad to hear that.
    Ms. Berrick, in your testimony you stated that some 
assumptions in the TSA staffing allocation model did not 
accurately reflect airport operating conditions. Elaborate as 
to what those assumptions are.
    Ms. Berrick. Sure. They were related to three assumptions. 
One was that airports would be able to hire a certain level of 
part-time TSOs. The second one was that screeners would be 
devoting 100 percent of their time to screening duties, when, 
in fact, they were pulled to do some additional efforts. And 
then the third area related to training, was it accounting for 
the training that screeners had to take.
    However, TSA made changes in all three of those areas to 
factor that into the model, which we think was very positive. 
In addition to doing that, TSA now regularly goes back and 
assess the assumptions that they used to determine staffing 
allocations and makes adjustments based on that review.
    Mr. Coble. So that has been resolved to your satisfaction?
    Ms. Berrick. Yes.
    Mr. Coble. Mr. Hawley, let me come back to you again. What 
processes are in place to ensure that coordination and 
collaboration is effective and efficient between TSA and DHS 
and the technology vendors and airport operators?
    Mr. Hawley. We have a division of labor in what the 
Department invests in research and development, and we usually 
call that 3 to 5 years out. So technology will be applied to us 
3 to 5 years hence. And then we work on integrating advanced 
technology as it is ready to get to the checkpoint. So that is 
the separation of work, and I believe that works well.
    I think the larger issue is why does it take so long to go 
from lab to checkpoint generally and are we getting all the 
technology that we should be. I think that is something that 
needs to be improved. It is principally driven by our 
acquisition process that is very rigid and essentially limits 
the choice that we can make to what is available to buy in the 
current year. That is a larger-scale problem.
    In terms of working with DHS and the community, I think 
that system is working well.
    Mr. Coble. Thank you.
    Thank you both for being here.
    I yield back, Mr. Chairman.
    Mr. Costello. I thank the gentleman.
    And the Chair now recognizes the gentleman from Kansas, Mr. 
Moran.
    Mr. Moran. Mr. Chairman, thank you very much.
    Mr. Secretary, Madam Director, thank you for joining us.
    One of the unfortunate consequences of higher fuel prices 
is fewer flights. I am not exactly certain how this has 
affected the general aviation industry, but know from headlines 
and my own traveling experience it has affected the commercial 
airlines in a significant way.
    What are the consequences at TSA for plans in the future in 
regard to this development? What does that mean for TSA?
    And, in particular, when it comes to small airports, it is 
my understanding that you are reducing your workforce. Is there 
an assurance that, should the circumstance improve and that 
flights return, that TSA is prepared to restaff those smaller 
airports?
    Mr. Hawley. The short answer is yes. The little bit longer 
answer would be that there are business decisions that have to 
be made so common sense is arrived at. But we have the 
obligation to screen the passengers. And, in some cases, it 
makes sense to do it further on down the line. But it is 
something that we work on very closely with the airports, the 
airlines, and the communities.
    We are feeling the effects of reduced service, which means 
we have to reallocate our resources or, in fact, move our 
officers from airports. But we are very much aware that, as 
service expands, we will work with the community to make sure 
that the passengers are screened and, where possible, screened 
at the originating airport.
    Mr. Moran. Well, the airlines are laying off employees. Is 
there a general change in the levels of employment at TSA as a 
result? Are there fewer passengers to screen? Is there less 
baggage and cargo to screen?
    Mr. Hawley. Right now we have not seen a dramatic drop-off. 
We hear the major effect is coming in the fall, and we are 
keeping a very close eye on that. We are able, when we have to 
pull back out of an airport, to make reductions through 
attrition. Or if we do have to actually make cuts, we work with 
the employees to have a proper separation, with proper 
communication. There is a lot of process involved in that. But 
it is something we are very upfront about with in the 
workforce.
    Given the current projection of where we are now, we are 
comfortable that any reductions we have to make will be made 
through attrition rather than losing our experienced officers 
who we have trained and spent a lot of money on and invested 
in. They are gold to us, and we need to keep that expertise in 
house to the extent we can.
    Mr. Moran. Is TSA adequately staffed now to meet the 
requirements, the needs, such that you would expect a smaller 
workforce if these changes occur? Or do these changes, this 
less travel, less flights, does that just allow TSA to better 
do the job that it is responsible for?
    Mr. Hawley. We are not immune to economic circumstances. We 
will react as we have to to be efficient in use of the 
Government's taxpayer money. But we are using opportunities in 
slower times to do retraining.
    As I mentioned earlier, we are retraining every officer at 
TSA_2 full days' worth of training_to get better experience.
    We have found that, because of a large workforce, that 
attrition generally is enough. If we do need to scale back, we 
would get a glide path that arrives at the right place 
economically.
    Mr. Moran. Any developments in regard to security, as it 
relates to the general aviation industry? Anything, as I say, 
developing or on the horizon that would affect the industry?
    Mr. Hawley. Yes, sir. We talked earlier about foreign 
repair stations and rulemaking. It is the same issue in general 
aviation. We have a rule that is going to come out as soon as 
it advances through the consultation process, but we don't wait 
until the rule comes out to get security in place. We have a 
very strong general aviation community in the United States 
that is, in fact, very security conscious. The Pilots 
Association and other general aviation groups are very 
cognizant of their security responsibility and are very 
forward-leaning in that regard.
    So I think we start from a strong base. And the rule, when 
it comes out, will memorialize what is basically in place as we 
speak.
    Mr. Moran. Let me join Mr. Costello in his questions, 
perhaps commentary, in regard to the foreign repair stations 
and the lack of rule. That has significant consequences to many 
companies at home and to the aviation and traveling public. And 
I very much am chagrinned that we are not there yet, and 
encourage you to do everything possible to speed the process 
up.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Good to see you, Secretary Hawley.
    There have been news reports recently that the terrorist 
watch list now includes 1 million people on it, even though it 
is my understanding that the number is actually closer to 
400,000 people, and that about 5 percent of those people are 
Americans. Is that correct?
    Mr. Hawley. There are less than 50,000 people on the TSA-
related No-Fly and selectee lists.
    Mr. Dent. Less than 50,000? Have you seen those same 
reports about a million or 400,000?
    Mr. Hawley. Yes, sir. Nor do we have CNN reporters on the 
watch list or Members of Congress on the watch list. That is 
not the case.
    Mr. Dent. Of that 50,000, then, how many are Americans, do 
you know?
    Mr. Hawley. A very small percentage, and I am not sure that 
I am at liberty to say exactly.
    Mr. Dent. At some point, maybe in a classified setting, we 
could get that number. Because there is a lot being said out 
there, apparently, in the media that is not accurate, and it 
wouldn't the first time.
    I know that DHS and TSA have made improvements to the 
travel redress process under DHS TRIP for those people 
inconvenienced when flying by having similar names to those on 
the terror watch list or no-fly list. As I understand it, the 
process is improving, but there are still a number of glitches 
in that system.
    Can you tell us how Secure Flight will remedy the problem 
for people with similar or the same names as those on the watch 
list?
    Mr. Hawley. Yes, sir. Secure Flight will have advanced 
algorithms that will be able to sort the normal traveler, be it 
a Member of Congress or a CNN reporter, who is traveling in the 
normal course of business and not on any watch list. The 
sophisticated algorithm will take care of that problem, and 
that complaint should go away.
    The problem is that today some airlines are declining to 
invest in their systems, knowing that Secure Flight is coming. 
As a result, some airlines have elected not to do what we would 
like to see them do, which is take care of the innocent 
passengers and not inconvenience them.
    But what we will not tolerate is anyone saying to a member 
of the public that, "You are on a watch list." That undercuts 
the credibility of the system. They are not on watch lists. 
They are being swept up in an airline filtering system that 
certainly catches the people we need to catch but is also 
pulling in a lot of people who should not be pulled in.
    We understand that is a business decision that they have 
made, but we are not going to tolerate it when somebody says, 
"Oh, you have to come up here because TSA has you on a watch 
list." That is something that we think undercuts credibility 
and are not going to stand for.
    Mr. Dent. Thank you.
    Could you also tell us when we can expect implementation of 
the Secure Flight program?
    Mr. Hawley. Yes, sir. The technology portion of it is 
moving along on schedule and should be ready in January of 
2009, as we have suggested. The rule, which is the authority to 
implement, has still not been released in final form. As soon 
as that is released, which we hope will be this summer, that 
will say when we can compel airlines to provide us the 
information we need.
    Mr. Dent. And as I understand it, there are a few airports 
and airlines that use their own funding to construct in-line 
EDS systems for screening checked baggage. Back several years 
ago when, I guess, the ATS mandated 100 percent screening of 
checked baggage, these airports and airlines claimed they were 
give assurance by TSA that they would be reimbursed in part for 
those costs. To my knowledge, they have not been reimbursed for 
these costs.
    Section 1604 of the 9/11 Act, which Congress passed last 
year, requires that TSA establish a prioritization schedule for 
airport security and improvement projects. And section 1604, as 
I understand it, also requires that the prioritization list 
include airports that have already incurred eligible costs 
related to the development of partial or completed in-line 
baggage systems.
    So has TSA completed its prioritization list?
    Mr. Hawley. Yes, it has. And the problem is that airports 
without in-line systems have a priority over those who already 
have them who wish to be reimbursed. That is the problem.
    The bigger problem is that about a billion dollars' worth 
of reimbursements would need to be made, which, from a risk 
perspective, we believe is better served for the purpose of 
increasing security rather than repaying for the systems that 
are already in operation.
    Mr. Dent. And under the prioritization list, will any 
airport receive funding for costs already incurred for in-line 
EDS systems? Or does the prioritization list include funding 
for future construction projects only?
    Mr. Hawley. It will not, in the near future, extend to the 
point of reimbursing unless there is a significant additional 
amount of money in the process. It will go to the newer systems 
that are put in place.
    We are putting out about a billion dollars this year. It is 
a significant advancement in overall security, but it is 
regretfully not yet to the point of reimbursing those who 
previously spent funds.
    Mr. Dent. Thank you, Secretary. I appreciate your service.
    Mr. Chairman, I yield back.
    Mr. Costello. The Chair thanks the gentleman.
    And let me thank you, Secretary Hawley and Ms. Berrick, for 
your testimony here. And if you would, Mr. Secretary, if you 
will get us answers to the questions of both Ms. Norton, Mr. 
Poe, and I think others.
    And the Chair recognizes the Ranking Member.
    Mr. Petri. I just wanted to submit an additional question 
or two for the record.
    Mr. Costello. We will have additional questions in writing 
that we will get to you and ask you to respond to, as well.
    Again, we thank you for your testimony here today. And the 
first panel is dismissed. Thank you.
    The Chair will introduce the second panel as they are being 
seated.
    The second panel will consist of Timothy Campbell, 
executive director of Maryland Aviation Administration, 
Baltimore/Washington International Thurgood Marshall Airport; 
Mr. Charles Barclay, who is the president of the American 
Association of Airport Executives; Mr. John Meenan, who is the 
executive vice president and chief operating officer of the Air 
Transport Association; Ajay Mehra, who is president of Rapiscan 
Systems, Incorporated; Mr. Steven Brill, chairman and chief 
executive officer of Clear Verified Identity Pass, 
Incorporated; and Captain John Pater, who is the president of 
the Airline Pilots Association, International.
    Please, if you would find your seats.
    The Chair would announce that we expect votes to occur 
somewhere between 12:15 and 12:30, so we are going to try to 
get to your testimony and as many questions as we can before we 
are called to the floor for votes.
    Mr. Campbell, since you are seated and hopefully you are 
prepared to proceed, the Chair, under the 5-minute rule, would 
ask you to summarize your testimony in 5 minutes.
    All of the witnesses should know that your full statements 
will be entered into the record.
    And the Chair now recognizes Mr. Campbell.

 TESTIMONY OF TIM CAMPBELL, AAE, EXECUTIVE DIRECTOR, MARYLAND 
  AVIATION ADMINISTRATION, BALTIMORE/WASHINGTON INTERNATIONAL 
  THURGOOD MARSHALL AIRPORT; CHARLES BARCLAY, AAE, PRESIDENT, 
  AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES; JOHN M. MEENAN, 
   EXECUTIVE VICE PRESIDENT AND CHIEF OPERATING OFFICER, AIR 
TRANSPORT ASSOCIATION; AJAY MEHRA, PRESIDENT, RAPISCAN SYSTEMS, 
INC.; STEVEN BRILL, CHAIRMAN AND CHIEF EXECUTIVE OFFICER, CLEAR 
 VERIFIED IDENTITY PASS, INC.; JOHN PRATER, PRESIDENT, AIRLINE 
               PILOTS ASSOCIATION, INTERNATIONAL

    Mr. Campbell. Thank you very much, Mr. Chairman and Ranking 
Member Petri and Members of the Subcommittee. It is my pleasure 
to be here today to represent BWI Thurgood Marshall Airport 
before the Committee.
    BWI Marshall Airport is a large hub airport serving the 
Metropolitan Washington area, of course. And thank you, Mr. 
Chairman, for your patronage and, of course, your passenger 
facility charge. We have worked with the TSA over the years on 
numerous security programs and implementation of new processes. 
And it has been a very good partnership going forward.
    You might ask, why BWI? We have had a number of programs 
implemented at our airport. We are obviously close to 
Washington, D.C., close to headquarters, close to a lot of the 
staff and the consultants and other technical folks that are 
involved in these systems. We have a combination of older 
facilities and newer facilities. We have three checkpoints that 
are serving older portions of our terminal building. And, of 
course, we have our new Southwest terminal building, which has 
two very nice, wide, spacious checkpoints. So we have a good 
mix there. And thirdly and most importantly, the staff at BWI 
recognizes the importance of developing new security technology 
and processes. We value it, and recognize that the continuous 
improvement in these areas is very important.
    Just a brief note on some of the new initiatives we have 
seen at the airport, and some of these have been mentioned 
already by the preceding panel.
    With respect to security screening for crew members, we 
have implemented a new crew pass process at the airport. Last 
week, it was rolled out. We are working with Southwest 
Airlines, TSA, ALPA and others on an additional screening 
process that would be used for crew members at one of our other 
checkpoints. So we are working on that particular area.
    And with respect to the new Checkpoint Evolution or the 
"checkpoint of the future," TSA implemented that at the airport 
a number of months ago, and it has really been a pretty 
successful operation, from the airport's perspective. It does 
require a larger footprint, more space than the traditional 
checkpoint. We are fortunate that in the new Southwest terminal 
we were able to accommodate that. We are not so sure that it 
would work in all airports in the current configuration. But 
that is one aspect of the new program.
    Mr. Hawley mentioned some of the new processes that are 
integrated into this checkpoint. And those, from our 
perspective, from the airport's perspective, seem to be working 
pretty well and are pretty well-received by the public.
    We do have the whole-body imaging devices at that 
checkpoint and at other checkpoints at the airport as well. 
Those have received a lot of media attention, but we have not 
received any customer comments or complaints about the use of 
those devices at our airport.
    We also have the new Advanced Technology X-Ray systems at 
this checkpoint and throughout the airport. And overall, the 
public has been very favorable to some of the new technology 
and processes in place.
    One of the areas that TSA is continuing to work on is that 
throughput through the checkpoint has not been what they 
expected and hoped for. They are making changes, and have 
actually made changes in that regard to get that throughput 
back up. And we think that what they are doing will work. Many 
of the elements of this checkpoint are being integrated into 
our other checkpoints as they go along.
    I will conclude my remarks and thank the Committee, and I 
would be happy to answer any questions.
    Mr. Costello. The Chair thanks the gentleman for your 
testimony, Mr. Campbell, and now recognizes Mr. Barclay.
    Mr. Barclay. Thank you, Mr. Chairman, Members. It is always 
a privilege to be before the Aviation Subcommittee.
    I want to begin by also complimenting Kip Hawley on his 
leadership at TSA. He has been somebody who does believe what 
he says about partnerships. That is exceptionally important to 
airports, where this Committee knows it well, but a lot of the 
public, when they hear airport they don't necessarily think 
local law enforcement working with Federal law enforcement. But 
that is what we have at airports. It makes a lot more sense to 
have both those groups pointed outward looking for bad guys 
than watching each other as a regulator and a regulated entity. 
We certainly don't do that with FBI and local law enforcement. 
We shouldn't be doing it with TSA and local airport 
enforcement. That notion of partnership is the right way to 
secure the system.
    One of our greatest frustrations since 9/11 is precisely 
what the Chairman mentioned in his opening remarks, to which we 
say amen on in-line baggage screening. This is one of those 
instances where common sense is being attacked by our Federal 
budget process. It doesn't have capital budgeting in it. So 
even though we could save much more money in operating expenses 
over the long haul than the initial investment cost, we are not 
able to take advantage of that, largely because of the way the 
budget rules are structured. That is a lesson for purchasing 
technology throughout the security area, and it is something we 
would offer the Committee to look at as an area that is ripe 
for reform and finding ways to spend our money in smart ways 
and get new technology in faster into the system as a result.
    My testimony mentions programs that are of great interest 
to our members on the checkpoint of the future, perimeter 
security, vetting of employees, adding biometrics to access 
control, control of access control at airports, employee 
screening, the RT program. These are all programs that are 
important to us, and I am happy to answer questions on them.
    Security issues since 9/11 have just consumed our members 
like Mr. Campbell. In fact, it is only recently, with the 
extraordinary rise in jet fuel prices, that I have had members 
tell me that their top three priorities are not security, 
security, and security. There is now one other issue on the 
table for them as well. But that very strong and consuming 
topic has really grabbed the attention of our members, and 
continues to do so.
    Finally, I just want to take a moment to shine a light on 
something that is not a problem, but I think it is important 
for the Committee to recognize, and that is a program that our 
association runs. The Transportation Security Clearinghouse is 
a program that is involved in the day to day vetting of airport 
and airline employees. The history of that program is that 
before 2002 and the existence of a clearinghouse, about 10 
percent of the employees went through the OPM process for 
criminal history record checks. That process took 52 days, 
almost 2 months, cost $31. Today it takes 40 minutes through 
the clearinghouse and costs $27. We have vetted over 3.2 
million biometric records from employees in the aviation 
industry. It dwarfs the volume in HAZMAT and port industries. 
They in fact pay double what transportation--it is more than 
double the $27 if you match up what is going on in terms of the 
actual activities concerned. But more important than the price, 
frankly, is that savings in time. If we were taking still 
several months to get people vetted to get out on the jobs, the 
airline industry in 24-7 just couldn't be working. The reason 
this is working is we have the incentives right. The members, 
our members like Tim, are both the owners and customers of the 
clearinghouse. That is why it is working. And we think we 
should build on that going forward.
    It also has a role in Registered Traveler. And we are 
strong supporters of that program, and think Mr. Brill and VIP 
and the other service providers have done good work there.
    So thank you, Mr. Chairman. I would be happy to answer 
questions.
    Mr. Costello. The Chair thanks you and now recognizes Mr. 
Meenan.
    Mr. Meenan. Mr. Chair, thank you very much. Mr. Petri.
    I join Chip and echo Chip in complimenting Kip's service to 
the country, his leadership at TSA. We greatly appreciate it 
and will miss him when he goes.
    It is no secret that the country and the airline industry 
was dramatically changed by 9/11. In our case, we can actually 
in some way measure part of that change because we have seen a 
very curious phenomenon that has occurred since then. Prior to 
9/11, for almost 20 years, spending on passenger air 
transportation in the United States ranged between about .9 and 
1 percent of Gross Domestic Product. After 9/11, that dropped 
to .7 percent. That is about a $26 billion piece of revenue 
that simply disappeared and hasn't come back. On top of that, 
we have got about a 4 or $5 billion a year expense to the 
industry in new security requirements. And between those two 
things, obviously the industry has dramatically changed, and in 
a way that has made it more difficult for all of us.
    In approaching that, obviously we want to think about ways 
to spend as smartly as possible, and we firmly believe that one 
of the tools that this Committee and Congress and the 
administration should consider is a much more rigorous risk 
analysis, risk management approach to decision-making, where 
you look at the data, look at the cost of programs, and 
determine where you are going to get the biggest return for the 
expenditures we are going to make. We have used that kind of 
tool on the safety side of the industry for more than a decade, 
and it has proven to be very effective. It isn't an easy 
transfer to the security equation, but we think it can be done. 
We think it would have some real merit.
    Now, under such an approach every expenditure would be 
looked at in relationship to all of the risks we are dealing 
with and with all of the other expenditures we are making, and 
I think in the end you end up with a smarter decision-making 
process as a result of that.
    Now, another key element to improving the design and 
efficiency of security programs requires improved focus, from 
our perspective, on data collection, data management, and data 
sharing. Expanding passenger information requirements creates 
substantial new demands on government agencies, airlines, and 
travelers. The problem is that the government's passenger 
information requirements have remained pretty much stove-piped 
and poorly coordinated. This problem arises in the DHS 
agencies, but it also arises with CDC, and increasingly we are 
seeing it from other governments around the world. And we are 
urging very strongly that the U.S. Government step up to this 
issue, get its own programs in order, set up a single sort of 
template that will be used for collecting information, and work 
with other governments so that we are not duplicating these 
things with variations all over the world in a way that is very 
inefficient and very costly.
    In addition to that, another element of improving security 
in our view is to advance the principle of do no harm, and that 
is to stop misguided security efforts. Right now we think that 
the Department of Homeland Security's efforts to require 
airlines to collect biometric, 10-fingerprint prints from 
departing international passengers, which clearly was a 
responsibility assigned to the Department, is an example of the 
kinds of things that shouldn't be advanced. We also think that 
the Registered Traveler program, frankly, is a program in 
search of a utility that doesn't exist at this point. We see 
very little value in that program other than an ID card to get 
you to the front of the line. As Mr. Hawley observed just a few 
moments ago, the handling of those passengers is exactly the 
same as everyone else once they get into the TSA process.
    We also think that we need to be smarter in the way we 
implement the air cargo security programs. I know it was 
mentioned earlier that TSA was assuming that responsibility. In 
fact, that is not the way the program is going to work. It is 
the carriers who are responsible for screening that cargo. And 
those burdens are going to be imposed on the airlines, and 
hopefully move back up the supply chain. But it isn't TSA that 
is planning to perform those screening functions.
    And finally, I would be remiss without bringing to the 
Subcommittee's attention the devastated economic condition that 
the airline industry finds itself in. As a direct result of the 
price situation, we have already seen 100 communities be told 
they are going to lose service. We have laid off or are laying 
off 32,000 people. We have grounded 700 airplanes. Things are 
likely going to get worse. And obviously, we are looking to 
Congress to work with us. And one of the things we are asking 
is your consideration and your support for moving legislation 
dealing with excessive speculation in the price of oil, while 
we also move forward to increase supply through additional 
drilling, through alternative energy sources, through use of 
nuclear power, and so forth.
    Thank you, and I would be happy to answer questions.
    Mr. Costello. The Chair thanks you and now recognizes Mr. 
Mehra.
    Mr. Mehra. Good afternoon. Thank you, Chairman Costello, 
Congressman Petri, and Members of the Subcommittee. I am 
honored to testify before this Committee on the critical issue 
of improving aviation security.
    My name is Ajay Mehra, and I am President of Rapiscan 
Systems. Rapiscan Systems is a global company headquartered in 
California which offers the world's widest array of 
nonintrusive inspection systems for airports, seaports, and 
land borders. Rapiscan Systems has installed more than 70,000 
systems in 150 countries. We therefore understand better than 
anyone the strengths and limitations of these systems, and can 
help security officials employ the best technology for any 
detection and operational requirement.
    Today, nearly 7 years after the 9/11 attacks, I can say 
that aviation security is clearly stronger. That is in large 
part due to the TSA. But as with everything, there is always 
room for improvement.
    While my focus today will be on technological advances in 
detection, we must pay equal attention to how technology 
affects airport operations and the traveling public that you 
have heard from others as well.
    As you know, TSA is diligently working to enhance 
inspection capability of passenger carry-on items. Currently, 
TSA is implementing the Advance Technology Checkpoint program, 
also known as AT for short. TSA intends to replace current 
checkpoint X-ray systems with the new AT systems. These systems 
are aimed at improving the detection of explosives and other 
aviation threats, while speeding up the process of passengers 
and their belongings. These systems provide multiple views of 
each bag, and can be screened at a number of advance functions 
to achieve these goals. Rapiscan considers the AT program as a 
model for procurement policy of TSA.
    As part of a competitive solicitation, TSA evaluated 
multiple technologies and selected three vendors to move to the 
operation pilot phase of this program. Ultimately, two vendors 
passed the operational testing and were chosen to move forward 
with deployment contracts. To date, Rapiscan Systems and one 
other company have been awarded contracts for the systems, and 
TSA recently announced that they would be purchasing additional 
systems.
    As part of the next phase of AT deployment, TSA recently 
released a request for proposal for scanning technologies to 
add to the QPL list for their program. This next phase doubled 
the number of performance requirements for the ATA systems.
    Rapiscan is ready to meet these new challenges. A key point 
here is that developments to meet the now procurement 
requirements are designed to be easily upgradable in the 
future, which will allow TSA to technology refresh these 
systems rather than actually replacing them, thus reducing 
training time, saving money, and ensuring enhanced security.
    I want to move on to a separate technology to be deployed 
at checkpoints known as whole body imaging that you have heard 
about during these hearings. Currently, U.S. airports employ a 
complex system of enhanced metal detection systems, trace 
detection machine, and physical patdowns to inspect passengers 
for weapons, explosives, and other materials. TSA's WBI program 
is designed to deploy technologies able to inspect people for 
multiple threats more quickly and effectively. Although we 
believe that the WBI technologies do meet these requirements, 
deployment has been slowed due to policy provisions associated 
with privacy concerns and testing changes to move the systems 
into a primary screening mode from a secondary screening mode. 
These delays have primarily affected the backscatter technology 
systems, which I believe have proven to offer the best 
detection capabilities.
    One of the selected WBI systems is a Rapiscan Secure 1000, 
which utilizes backscatter technology. The Secure 1000 is 
currently deployed at various nonaviation locations all over 
the world. Unfortunately, and unlike the AT program that I 
previously talked about, TSA has chosen to move forward with a 
single technology known as millimeter wave without successfully 
completing all phases of testing. We believe that this 
insufficient data did not quantify the detection capability, 
passenger throughput, and reliability of the millimeter wave 
technology. Thus, procurement of these machines at the numbers 
at which TSA has chosen is premature. We would suggest that TSA 
successfully complete the entire original pilot program as it 
was defined and quantify their test data before moving forward 
with procurement of any additional machines.
    The delays in the initial WBI program are now being 
followed by a new qualified product list procurement for WBI. 
This new process requires a substantial investment by WBI 
companies to submit for another round of testing. Given TSA's 
ongoing testing of additional programs and the decision to 
purchase only millimeter wave before finalizing testing, 
Rapiscan does not understand the value of the government or 
industry investing in another round of procurement.
    While I was asked by the Committee to focus on checkpoint 
today, I heard people talking about other areas as well. We are 
currently developing technology that can be used for next 
generation EDS for checked baggage, and have readily available 
technologies that can be used for air cargo.
    I want to thank you all again. Rapiscan Systems is proud to 
be part of the U.S. homeland security effort, and the only 
company to be part of both AT and WBI programs at the 
checkpoint. I will be happy to answer any questions.
    Mr. Costello. The Chair thanks you, and now recognizes Mr. 
Brill.
    Mr. Brill. Mr. Chairman, Mr. Ranking Member, Members of the 
Committee, thank you for inviting me here today to talk about 
the Registered Traveler program, a partnership, and now a 
really good partnership between the Transportation Security 
Administration and private sector companies like Clear, which 
operates Registered Traveler programs in 16 of the 18 
Registered Traveler airports.
    In the last year, RT has gathered critical mass across the 
country. Indeed, as of this weekend more than 200,000 people 
will have enrolled. And we are now enrolling a thousand people 
per day. Put simply, the program is delivering on the promise 
of public-private partnerships to protect our homeland and make 
travel more convenient, which is what impelled those of us at 
Clear to start this enterprise in the first place. And in fact, 
as you heard Mr. Hawley say, the program has now worked so well 
that it is being rolled out all across the country. And we are 
delighted by that announcement. Indeed, TSA's cooperation has 
been effective and increasing, and the American Association of 
Airport Executives' Transportation Security Clearinghouse has 
also done a really good job.
    The typical Clear member is a road warrior, a sales person 
or contractor who is stuck flying three to six round trips each 
month. They love the program for its speed and its 
predictability, which allows them to spend an extra hour at 
home in the morning or an extra hour in the afternoon doing 
their work. In just the last year, nine new airports, including 
Reagan and Dulles, have joined the program, and the busiest 
airport in the United States, Atlanta, is opening within a few 
weeks. The TSA turnaround time for approving these programs has 
been improving, and is now exactly what we would hoped it would 
be.
    Airlines too are becoming sponsors of Registered Traveler, 
airlines including many members, I should add, of the ATA, with 
Delta having signed a milestone partnership with us just last 
month that will add numerous Clear lanes to key Delta 
terminals. Indeed, now that RT's premise has been proven and 
its momentum is snowballing, the number of members as well as 
participating airports and airlines is poised to multiply next 
year and beyond.
    Now here is what all this means for aviation security. 
Quite simply, Registered Traveler helps TSA manage risk. After 
all, TSA knows that these frequent travelers are the only 
travelers whose identities have been assured because they go 
through biometric verification every time they go through an 
airport. And members will soon be carrying Registered Traveler 
cards that not only require biometric verification, but also 
feature additional state of the art security features that, as 
Mr. Hawley said this morning, really comply, are the first 
cards to comply with REAL ID, all done on a voluntary basis at 
no cost to the taxpayer, and with none of the issues that are 
raised by forcing people to have these cards.
    Our members are also the only travelers who have been the 
subject of a security threat assessment, a process that will 
now be transitioning from TSA doing it to the AAAE 
clearinghouse doing it. It is our estimate that because RT 
members travel so frequently, and therefore make up such a 
disproportionate share of the flying public, once the program 
is rolled out, 30 to 50 percent of those moving through a big 
airport on a weekday morning will be prescreened, biometrically 
verified, Registered Traveler members.
    Now, that takes a lot of the hay out of TSA's proverbial 
haystack, again at zero cost to the taxpayers. And while this 
is going on, the program actually makes the checkpoints more 
efficient for everyone because our concierges at our lanes are 
able to speed the process. Our members move through on a much 
faster basis, typically in less than 4 minutes, and the other 
lanes actually move faster because our lanes work so much more 
efficiently.
    Now that we have achieved this kind of critical mass in 
customer and airport satisfaction, we are ready to move to the 
next step of cooperation with the Department, including being 
able to use the biometric platform we have to solve the US-
VISIT Exit problem, to take one example, and to coordinate this 
program with programs such as Global Travel.
    I am eager to answer any of your questions.
    Mr. Costello. The Chair thanks you, Mr. Brill, and now 
recognizes Captain Prater.
    Mr. Prater. Good afternoon, Chairman Costello, Ranking 
Member Petri, Chairman Oberstar, and Members of the 
Subcommittee. On behalf of the 55,000 ALPA pilots who fly for 
40 airlines in the U.S. and Canada, thank you for this 
opportunity. I have four areas to quickly cover: Crew member 
screening, FFDOs, secondary barriers to protect the cockpits, 
and cargo security.
    In a real sense, pilots are security in the air. And if all 
the technology and all the human assets fail, they will be the 
last defense to protect the cockpit. That is why our union has 
pushed so hard, and continues to advocate for better 
procedures, training, and technology that let us stay one step 
ahead of those who would do us harm.
    Since 9/11, working in tandem with government officials and 
industry stakeholders, ALPA has helped implement several 
initiatives that have become part of the layered security 
protections that we depend upon. The most exampled success is 
CrewPASS, which was launched just 1 week at three airports, 
Baltimore being one of them.
    CrewPASS is an ALPA-conceived program. It is used by TSA 
officers to verify a pilot's identity and employment status in 
real time. This reduces congestion and passenger wait times at 
screening checkpoints, enabling our transportation screening 
officers and the behavioral detection officers to better 
protect the traveling public by focusing on those who would 
possess harmful intent instead of diverting valuable security 
resources on known, vetted and trusted pilots.
    ALPA has provided the computer equipment to the TSA 
employees to administer this program, briefed our members, and 
has made this information available to other U.S. airline 
pilots. Just 1 week into the test, ALPA has tallied over 3,000 
pilots who have used this enhanced security system. ALPA's 
security team has received positive reports on CrewPASS from 
our pilots and from the TSA, and we fully expect TSA to 
continue to expand the program after the 60-day test period. We 
urge you to fund the appropriate technology and resources 
needed to move this program nationwide.
    Another security success story is the Federal Flight Deck 
Officer program. TSA has proclaimed the FFDO program as one of 
its top 20 successful initiatives in the area of security. 
However, after 5 years it needs some review and improvement. 
For example, an appropriately sized and organized management 
structure is sorely needed to supervise the thousands of FFDOs. 
Effective oversight of the entire program rests with the 
Federal Air Marshal Service, with just 20 people. ALPA also 
believes the government should reimburse these volunteer FFDOs 
for their out-of-pocket costs associated with their training in 
the all-volunteer security force. Some airlines even refuse to 
accommodate requests by pilots to attend the initial and 
recurrent FFDO training program, forcing pilots to use vacation 
time to become the armed officers who defend our airliners. We 
believe these volunteers deserve the same leave rights from 
their airline employers to complete their FFDO training as 
those citizens performing Reserve or National Guard military 
duty.
    Protecting the flight deck doesn't end with the FFDO 
program. ALPA believes strongly that the installation, the 
mandatory installation of secondary flight deck barriers would 
supplement the protection offered by the reinforced cockpit 
door. These barriers can provide a tremendous increase in 
security against another hostile takeover of a flight deck for 
a very few dollars. The secondary barriers will create the 
precious seconds for pilots and flight attendants to react if a 
flight deck is attacked when the cockpit door is opened in 
flight. In fact, two U.S. major passenger airlines are 
installing these, and others are awaiting for the FAA to 
approve the development and standards for the installation of 
secondary barriers. We would ask the Subcommittee to consider 
funding an initiative to develop the design standards, test 
existing prototypes, and create the standardized procedures for 
flight crew members.
    These secondary barriers are especially needed on cargo 
aircraft, which almost unbelievably do not even have cockpit 
doors to protect their pilots. Unfortunately, this is just one 
item on ALPA's long list of security concerns for air cargo 
operations. Cargo airlines continue to fly under the regulatory 
radar, dodging implementation items and the final rule on air 
cargo security requirements. The fact is that far too many 
cargo operations continue to fall short of the one level of 
safety and security.
    I will summarize by saying for the 55,000 pilots I 
represent 9/11 doesn't seem like 7 years ago. It seems like 
yesterday. With the image of four lost airliners, their 
passengers and the 33 crew members as our backdrop, we work 
every day to make our industry more secure. And because of the 
additional layers of security that you have already mandated, 
you have added to the probability of stopping the next threat.
    Thank you for all that you have done when all of us agreed 
together that we would never forget. Thank you.
    Mr. Costello. Thank you, Captain Prater. The Chair would 
announce to everyone and to Members that we have four votes 
going on on the floor right now. I would guesstimate that it 
would be about 50 minutes to take those votes. We have 6 
minutes to proceed, to get over to the floor.
    At this time the Chair would recognize the Ranking Member 
for any comments or questions.
    Mr. Petri. Thank you very much, Mr. Chairman. I thank the 
witnesses. In the interests of time and votes on the floor, I 
will submit my questions for the record.
    Mr. Costello. Very good. The Chair now would recognize the 
gentlelady from the District of Columbia, Ms. Norton.
    Ms. Norton. Well, I will yield to the Chairman if he has 
any questions, since this is the only Member who doesn't get to 
vote on these matters. I will leave it at that.
    Mr. Oberstar. I was not going to consume time, but Captain 
Prater raised a question. Have there been any attempts on the 
flight deck door?
    Mr. Prater. Mr. Chairman, yes, there have been. They have 
certainly been unsuccessful, but as recently--and some of them 
are misunderstandings. Some of them are obviously inebriated 
passengers. But the fact is there have been approaches to the 
cockpit door when it is open. Some mistakenly, most recently by 
a Missouri doctor who was actually convicted of being out of 
his seat when the cockpit door was open and not responding 
quickly enough to be seated.
    So there have been attempts. There have been foreign 
takeovers. The threat against the takeover of an airliner is 
real, as we heard this morning. We are asking for those 
secondary barriers to be mandated.
    Mr. Oberstar. Thank you.
    Mr. Costello. The Chair thanks the Chairman of the Full 
Committee, and would advise our witnesses, as I said, we have 
about 50 minutes or more that we will be on the floor. There is 
another hearing that will take place in this Committee room. So 
as Mr. Petri had indicated as the Ranking Member, he will be 
submitting questions in writing to you, I will as well. I think 
a number of questions that all of us had were both answered not 
only by the first panel, by Secretary Hawley, but in follow-up 
testimony from in particular Mr. Brill and Mr. Mehra. But we 
appreciate your testimony here today, and we will be submitting 
questions for you in writing.
    So we thank you for being here and offering your testimony, 
and that concludes the Subcommittee hearing. The Subcommittee 
stands adjourned.
    I would ask our witnesses before they leave if you would 
have just a few minutes to please sit down again, if you would. 
The gentlelady from the District of Columbia, Ms. Norton, will 
not be going over to the floor as we have to, to vote, but she 
has questions that she would have that she would like to ask 
you at this time.
    Ms. Norton. Well, I thank the Chairman, and of course the 
hearing will be adjourned afterwards. And I say only to the 
panel you would have gotten off scot-free if the District of 
Columbia had what it has deserved for 2 centuries now. The 
Chairman said he voted for it and the bill is out of the House, 
and soon to be out of the Senate. I am privileged to not only 
vote in Committees, and especially this Committee, but to Chair 
one of this Committee's Subcommittees. And even to vote on the 
floor on some matters, though not on this matter. So I will 
proceed in person. I do have just a few questions, one for 
Captain Prater.
    Sir, we are all in your hands. And every time we get on a 
plane we are very grateful to know who is in charge, because we 
know the kind of rigorous--not screening, rigorous training you 
have gone through, and that you make all the decisions 
essentially on a plane. I want you to know that I strongly 
endorse your testimony calling for reinforced flight deck 
doors. And that is a post-9/11 improvement that has been much 
hailed as an important one. It was common sense, and everyone 
believes that in one fashion or another it has had a deterrent 
effect.
    I want to ask you about another matter that I believe was 
authorized certainly by this House and the Senate, and that has 
to do with revolvers. Was that bill also passed by the Senate? 
Revolvers for pilots during air flight?
    Mr. Prater. Yes, ma'am. The Federal Flight Deck Officer 
program is an approved and operating program.
    Ms. Norton. [Presiding.] Who runs that program?
    Mr. Prater. The TSA. And the specific division is the 
Federal Air Marshal Service runs that program, runs the 
training and the supervision of those airline pilots who have 
completed that training.
    Ms. Norton. Now, would you describe that training for me? 
How long does it--what is its time frame? How does it proceed? 
Who does the training?
    Mr. Prater. I would not be an expert on that, but obviously 
we do have many experts on the subject. The training is for the 
Federal Flight Deck Officers, airline pilots who have passed 
the screening and have volunteered, been background checked by 
the FBI and the TSA, undergo a full 7 days of training on how 
to defend the cockpit with a sidearm.
    Ms. Norton. How many deck officers have chosen to partake 
of this training and are now carrying revolvers on airplanes, 
please?
    Mr. Prater. That is actually a classified number that----
    Ms. Norton. I am not asking you on which planes. And 
perhaps I have to ask the TSA. I am only asking how many.
    Mr. Prater. And that number is actually considered by them. 
I do not have that number. We know who is and who isn't, but 
TSA controls that.
    Ms. Norton. Who supplies the revolvers?
    Mr. Prater. The U.S. Government.
    Ms. Norton. I would like you, Captain, to the best that you 
can, to consider the various improvements in security that have 
been made since 9/11 and rank them, let's say, from the most 
important down.
    Mr. Prater. I would say that we certainly believe the FFDO 
program is one of those. But if I had to rank them----
    Ms. Norton. What? I am sorry.
    Mr. Prater. If I had to rank them----
    Ms. Norton. You used some initials there.
    Mr. Prater. I am sorry, the Federal Flight Deck Officer 
program, which we of course call the last line of defense.
    Ms. Norton. Okay.
    Mr. Prater. I believe that the federalization of the TSA 
itself, and having a much higher standard for our screeners has 
been very important. It has been slow to get there. I believe 
the number one protection of the cockpit from being taken over 
would be the secondary barriers, the mandate that those be 
installed. The two airlines that have begun to do that I 
believe have provided a safer and more secure airliner. So we 
will continue to hit on that. I believe that the screening of 
passenger baggage would rank up there.
    Ms. Norton. We were doing that before 9/11, weren't we?
    Mr. Prater. Not to the extent that we are today, not with 
the mandates from Congress. And I think the continued 
application of technology, the training of people and the 
awareness of the security issues have all gone into making the 
system more secure, and therefore more safe.
    Ms. Norton. So I take it you don't put the flight deck 
officer program quite in that--in the same category as some of 
the other things you named.
    Mr. Prater. Actually, I put it as it is the absolute last 
line of defense. I think we all have to remember that 9/11 
happened, in the last analysis, that four airline cockpits were 
taken over----
    Ms. Norton. Which had, of course, no safeguards whatsoever 
for getting into the cockpit.
    Mr. Prater. Actually, the Federal Flight Deck Officer 
program, I guarantee you that those pilots fought as hard as 
they could from being taken over. If one of them had been 
armed, had been a Federal----
    Ms. Norton. Of course if there had been doors to keep----
    Mr. Prater. There were doors, but they----
    Ms. Norton. Not to mention, not to mention reinforced or 
secondary doors. That also might have been meant another 
outcome.
    Mr. Prater. I agree.
    Ms. Norton. Obviously, some of us are very concerned. The 
industry strongly opposed revolvers. We know that the captains 
did not. And I am simply trying to discern how helpful they 
have been or not. And I don't have an automatic opposition, but 
when industry opposes something that universally you want to 
follow up to see what has happened. I have to assume that--I 
don't recall any example of when the revolver has been used. If 
it were, I am sure it would have been reported publicly. Do you 
know of any such circumstance?
    Mr. Prater. I do not know of any circumstances where the 
revolver has been used to defend the cockpit from a hostile 
takeover.
    Ms. Norton. I am not suggesting, Captain Prater, that it 
would have to be used in order for it to be useful. I just want 
to know what has happened. And the reason I am not suggesting 
that is, of course, the importance of whatever we do in public 
safety on the ground or in the air is really the deterrent 
effect. I recognize that. I am just trying to find out whether 
this has been of any use--the kind of use that one could 
document, since you can never document deterrent effect. In 
fact we are not sure why we haven't been attacked, but we are 
sure it has something to do with the overall security.
    I must say, Mr. Meenan, I take your point about how you 
wonder about all this prescreening of passengers at the front 
end and leaving the back end somewhere in the 20th century, I 
suppose, and not moving as rapidly there. Of course from the 
point of view of the general public, and you have heard the 
testimony of witnesses at the table with you, any part of this 
process that is speeded up will have at least a comfort effect 
on passengers, and perhaps will have an effect on not turning 
people away from airline travel at a time when there is every 
incentive to do so that of course airlines can't do anything 
about, such as gas prices. But I certainly take your point. Of 
course what Congress would have to do to begin to match the 
prescreening, which I don't regard as rocket science, is 
enormous. It would involve us getting big time into the act; 
whereas, the prescreening has been developed entirely by the 
marketplace.
    Indeed, for Mr. Mehra and Mr. Brill I would have a 
question, because the first question I would have is how long 
would it take us, in your view, to get to universal 
prescreening? And you know the word is tempered by what 
universal would mean in terms of who would in fact get through 
prescreening. But that is really what I am talking about here.
    Mr. Meenan. I think what we heard from Mr. Hawley is with 
the rollout of Secure Flight and with the full deployment of 
TSA document checkers who are matching tickets with 
identification documents, you have a very effective system at 
that point. And that is why we see the Registered Traveler 
program as really a needless redundancy that is a distraction.
    Ms. Norton. Sorry, it is a redundancy because of what?
    Mr. Meenan. It doesn't provide a meaningful benefit to 
anyone that we can see. It is a marketing program. It is 
something that, you know, maybe people want to have that is--
but we don't see why the government is involved.
    Ms. Norton. It does not provide any benefit because----
    Mr. Meenan. Because the document that Mr. Hawley describes 
is a biometrically encoded card with a picture on it. And it is 
exactly the same as a driver's license in effect, as far as TSA 
is concerned, because what they do is they look at it, they 
make sure you are the person whose picture appears there, but 
then they treat you exactly the same way when you go through 
security. So there is no benefit.
    Ms. Norton. I took that point, that you can get in--once 
you get into the government run part of security you are hung 
up the way you were before. Where I differed with you was on 
the benefit to the passenger of not being hung up the whole 
way.
    Mr. Meenan. As I say, it is a card that buys you a place at 
the front of the line. We don't think that is a particularly 
useful program for the government to be involved in.
    Ms. Norton. Well, Mr. Brill seems to----
    Mr. Brill. I am not quite sure I know where to start.
    Ms. Norton. He seems anxious to respond.
    Mr. Brill. There actually isn't any single aspect of what 
Mr. Meenan has said that is accurate, starting with the use of 
his pronoun "we." Many of his members of the ATA have now 
partnered with us and are endorsing our program, most recently 
I think his largest member, Delta Airlines. Moving on from 
"we," our process at the lane is different. Mr. Hawley has 
acknowledged this. Because we pay for concierges to be in front 
of the metal detector and behind. We speed throughput. Our 
lanes move people through 30 percent faster. It may not be the 
implementation yet of the technology that would speed the 
throughput, but by investing in those people that we pay for, 
because our members pay us, the lane--it is not just a front of 
the line program, the lane moves faster.
    Last, the card that people use is different because it is 
biometrically secure, and it not only----
    Ms. Norton. It is not a driver's license.
    Mr. Brill. It not only substitutes as a driver's license, 
but it does more, and in the future will do still more. TSA has 
kept the invitation open to us to continue to improve both the 
background check and the enhanced security equipment so that 
not only will our throughput be faster as it is today because 
of our use of people, but because of our use of technology.
    And the last thing I will say is that the difference 
between what we do and what TSA has attempted to do with Secure 
Flight is A, what we do is voluntary. B, what we do doesn't 
cost the hundreds of millions of dollars that Secure Flight has 
cost. And C, what we do is actually working already in the 
airports.
    Now, TSA has a much rougher job trying to make this 
universal and trying to navigate all the legal and privacy 
issues, but we think we have shown the way with a public-
private partnership that is voluntary, that has world class 
privacy protection policies, and that has attracted people who 
are not the rich people who are getting on the ATA's first 
class lines, but who are the road warriors, the $65,000 a year 
person, that is our typical person, who are stuck in airports 
at 5:30 in the morning. It means something to them. It 
increasingly means something to the airlines that are his own 
membership, which is why they are joining us.
    Ms. Norton. Mr. Mehra, do you have any response to the 
notion of rapidly getting to more universal, and whether or not 
where we are now is particularly useful?
    Mr. Mehra. Well, you know, we are not the experts on 
prescreening. I think the real issue is when the passenger gets 
to the actual checkpoint what do we do? And from that 
standpoint, we look at every single passenger equally and we go 
through the screening process. I think the key thing over here 
is how quickly can we get technologies in place to improve that 
screening process so the whole public is able to go through 
these checkpoints faster?
    So if you look at some of the new technologies that are 
coming in, I talked a little bit about the AT technology, the 
whole concept over here is to improve the image quality of the 
machines, what the operator is actually looking at. It is very 
important for the operator, whatever the operator sees, he is 
going to be able to detect any kind of threats a lot easier 
than with the current machines. We have two views of those 
machines so they can look at different angles, the whole 
concept being that if they can look at certain things right up 
front, secondary screening, opening your bags is not necessary. 
And that benefits the entire public. And I think that is really 
the process that we should be looking at. Any technology that 
we are bringing in should be benefiting the entire public so we 
can make the checkpoints smoother and have the public go 
through a lot faster.
    Ms. Norton. I am going to let Mr. Meenan respond if you 
would like to. Mr. Mehra, you are talking about a process that 
would involve government resources, are you not?
    Mr. Mehra. Well, you know, I think, you know, you have got 
to look at government resources, you know, from two different 
angles. Yes, we are looking at the next generation machines 
with the AT machines. It is easier for the operators to operate 
them and it is easier for--as far as looking at threats, it is 
easier for us. Having said that, you look at the number of 
operators that is required at a checkpoint. So if right up 
front you can improve the detection capabilities you may be 
able to reduce the number of operators because the secondary 
checks become less. So from government resources, the total 
government resource, the total cost to government goes down, 
total flow of passengers goes through, the airports are more 
efficient, the airlines are more efficient and the government 
is more efficient. You can't just look at the cost of the 
equipment, which is a very small portion of this whole thing.
    Ms. Norton. Mr. Mehra, one of my greatest frustrations in 
being in Congress is the analysis you have just done is never 
done here. We invest short term that costs us up the line 
enormously. And that may have to do with the way a democracy 
operates, you know, that is response to short-term needs of its 
constituents. But the notion of front-end investment because 
you are paying that much more down in is the virtual modus 
operandi of the House and the Senate, I have to tell you, since 
creation. We can't even get a 2-year appropriations process. We 
don't have a capital budget. So, you know, people like me who 
are interested in problem solving are forced, therefore, to 
look at parts of any process. And the more you come in with 
large amounts to spend without dicing it up, I know for real 
that it is not going to happen. We have now a deficit built 
from tax cuts that went primarily to well off people and from a 
war without end, and another war that demands our priority. 
Then we also have what the House is trying to do, which we call 
PAYGO. And that means that if you want an increase you have to 
indicate how you will pay for it. It is very, very troubling. 
That we have to do because of what the deficit means to our 
economy. But what it forces people like me to do is to say, 
look, since I can't change this short-term thinking, by the 
way, that is endemic in the way the stock market operates, you 
know, they look quarterly. That deters many shareholders from 
investing long term, just as the government doesn't.
    So I say that only to say I am trying to find ways piece by 
piece, knowing that really is all at my disposal to move a 
process along which I believe is further destroying the airline 
industry in our country.
    Mr. Meenan, I have to ask you why all these airlines--I 
think Mr. Brill made a point--how come they hopped on so 
quickly, Delta and the rest, or--yeah, you know, if this was of 
no value, the notion of dealing with the front end of the line 
this way?
    Mr. Meenan. It has been primarily a marketing department 
decision at some of these airlines to experiment with this.
    Ms. Norton. You can't market things that don't sell. They 
have got gazillions of people just waiting in line to be one of 
these----
    Mr. Brill. But the fact is----
    Ms. Norton. --one of these passengers who has been 
screened.
    Mr. Meenan. Mr. Hawley has been on record for a 
considerable period of time saying that RT contributes nothing 
to TSA at the checkpoint. We initially thought that RT was a 
good idea. We were very firm advocates back around 9/11. But as 
the security system has developed, it is clear to us that this 
does not contribute to an improved security process. It gets 
you up to the front of the line, as Mr. Hawley said----
    Ms. Norton. So you see no improvements until--fill in those 
blanks, please. This is of so little value that the private 
sector shouldn't even have undertaken it, sir?
    Mr. Meenan. We are saying that this is a needless 
distraction for TSA.
    Ms. Norton. Who is being distracted?
    Mr. Meenan. The TSA has put considerable time and work 
into----
    Ms. Norton. That has taken them from putting time where?
    Mr. Meenan. Into other programs that they could better put 
those resources in.
    Ms. Norton. Such as?
    Mr. Meenan. Any one of them. The reason we are suggesting 
the TSA and this Committee and the Congress and everyone else 
adopt a much more analytical approach, to your point about 
spending more wisely, as my testimony points out, you can 
develop sophisticated models to look at what are the risks we 
are dealing with, what are the solutions to those risks, what 
are the costs of those risks? We have done that very 
effectively on the safety side of the airline industry. And it 
is one of the reasons our safety performance is as 
exceptionally good as it is. We think that that same kind of 
modeling technique could be used----
    Ms. Norton. By whom?
    Mr. Meenan. By the government writ large. By Congress, by 
the administration, by TSA, by DHS to determine before you 
decide to spend on this program or that program or to take----
    Ms. Norton. We are not spending on this program, Mr. 
Meenan. We are home free on this one. You heard me describe the 
budget situation in the Congress. I am just surprised that 
anybody connected with the industry would trash improvements 
made by the private sector which we don't have to put a dime 
in. Because you know exactly what I just reiterated about the 
budget situation. To the extent that people come to the 
Congress and say all you have to do is put some money in and 
everything will be all right, you are wailing to the wind. That 
is why we weren't prepared for 9/11, in my view. Nothing had 
happened so serious so as to get the kinds of things we are 
willing to do after there was an accident. It is very 
frustrating to me. And I share your frustration. I am a Member 
of the Homeland Security Committee. I can't see them paying any 
more attention to this than they are paying to anything else.
    And to tell you the honest to goodness truth, they haven't 
been paying enough attention to prescreening, which is why they 
have taken a terrible grilling. Mr. Hawley knew that he was 
coming before this Committee, if he hadn't moved he would get 
another grilling. They have been beat about the head and 
shoulders by of all people the Homeland Security Committee 
precisely because of the pressure on Members of Congress to do 
something about what has become a bus station atmosphere in 
airports. And it seems to me for the good of the industry even 
if you can't do it all at one big time and even if we are not 
going to come up with the resources that are deserved and 
needed, somebody has got to move some of this process along, if 
for no other reason than to keep people wanting to fly.
    The whole notion of doing something for one part of the 
process and not the other part of the process yields reactions 
like mine, who I have never gone first class. You know, I have 
never personally gone first class unless somebody else was 
paying for it. If you are a Member of Congress nobody else can 
pay for it. Guess what, those folks don't get there any sooner 
than I do. Those folks are not any safer than I am. But a lot 
of them are willing to pay to sit in some seats that are a 
little bigger and get a little better food.
    That is America for you. If the private sector does it, it 
gets done. The private sector is who enables the airlines to 
pay for the first class accommodations. It is the private 
sector that has done this.
    Indeed, I am going to turn to the private sector, I am 
going to turn to Mr. Mehra and Mr. Brill for my last question, 
which is related, very much related to Mr. Meenan's testimony 
about the need for resources to get this whole system going 
with one part of it kind of stuck, although we did have 
testimony this morning about upgrades in passenger screening 
that we were pleased to see. But you know, he is right, you 
have got one part of it in what I call the 21st century and the 
other part in there somewhere back in the 20th century. And I 
just indicated that you cannot look to the government if you 
expect Mr. Meenan's, it seems to me appropriate, vision to come 
through any longer.
    Now, I simply would like to ask both of you, who have seen 
the progress made with private sector funding, to take a look 
at things like the screening footprint. Mr. Barclay offers 
testimony that one would have to pay attention to. He says at 
page 5 of his testimony that there was concern about 
prescreening coming. And what he is talking about are terminal 
modifications that would need to be made. Well, we provide some 
money. I don't believe that he can expect any greater 
deployment of funds than I indicated we are able to do 
generally. But he talks about the requirement for airport 
modifications. Or let me just read, Mr. Barclay, that sentence. 
As TSA develops its deployment plan, the agency must be 
prepared to either factor in those space constraints to its 
modeling or be prepared to step up to the plate with any 
resources that may be required for airport terminal 
modifications. As past experiences prove, the agency has a 
healthy appetite for space in airports, et cetera. So I think 
they are right certainly in a number of airports. Certainly not 
in all, but in a number of airports.
    Do you think the private sector would do what it did for 
prescreening and fund or offer some funding if modifications 
were necessary in order to install their equipment? Or if not, 
how do you think that is going to be--what is your answer to 
these space issues?
    Mr. Mehra. Congresswoman----
    Ms. Norton. Both of you. Yes, Mr. Mehra.
    Mr. Mehra. I think you make a very good point. And this is 
something that within the private sector, within the industry 
we grapple with all the time. If you look at the checkpoint, 
the Advanced Technology Checkpoint that we are putting in, one 
of the key things from our standpoint was that we wanted to 
make sure the weight of the machine, the size of the machine 
could fit into the configurations that were at the current 
checkpoints to minimize any kind of other costs that are 
required from the government. I think that is very important. 
So you look at what we put in there, we obviously took that 
into account.
    The other thing that is very important where I think the 
government in this case, as well as the private sector----
    Ms. Norton. But at least there was space in the airport for 
what you put in there?
    Mr. Mehra. Well, there was space in the airport, but we 
used the space that was already there. So we were not----
    Mr. Norton. Exactly. Now, Mr. Barclay's testimony says 
there is not space already there. And my question goes 
specifically to his testimony.
    Mr. Mehra. I think, you know, if you look at some of the 
systems that are getting put in; for example, the EDS systems, 
everybody wants them out of the lobby area into the airports 
for in-line systems. Now, the key thing over here is most in-
line systems, if you like at internationally at airports such 
as Heathrow or large airports, they have in-line systems which 
are placed into the conveyor systems that work at about 1,500 
bags an hour. The current technology, EDS technology, that 
exists is nowhere near that speed. So one of the things that I 
just mentioned briefly was we are working on a system that is 
capable of doing 1,500 bags an hour, getting in-line, so you 
don't have to try and place three or four machines, you just 
place one machine.
    Ms. Norton. All right, that is that system. How about the 
shoe machine?
    Mr. Mehra. The what?
    Ms. Norton. The shoe machine.
    Mr. Brill. Can I take a crack at that?
    Ms. Norton. Yes, Mr. Brill.
    Mr. Brill. First, I want to be mindful what you said about 
thinking long term. And therefore, I am going to stop my 
criticism of Mr. Meenan and the ATA, since I will bet you a 
nickel that if I sit here a year from now a majority of his 
members will have partnered up with us and be supporting the 
Registered Traveler program. So I am looking forward there.
    First of all, whenever we do any construction, add any 
equipment at any airport, we pay for it. And the airport, as 
you know, gets a revenue share from our revenues. It is true 
that airports are very concerned about space, and that 
sometimes means that before they learn about a Registered 
Traveler program one of the first things they will say to us is 
we don't have room for one of your lanes. And my answer is that 
they didn't have to widen the Golden Gate Bridge, or I guess I 
should say to you the Triborough Bridge, to put in E-ZPass.
    You just reallocate the people in the same number of lanes, 
which is what we have done at every airport where we have been.
    The last point is we want to be investors in technology. We 
want to buy equipment like Mr. Mehra's. And we have talked to 
TSA about this. This is where the shoe scanner comes in. This 
is the same context, where we would buy equipment that promises 
some kind of speed-up of the process because it is better 
technology, as with the shoe scanner, which, as you know, is 
still being tested, we would buy that equipment on our nickel, 
put it in our lanes with TSA's approval. The point being, what 
better place to test equipment that offers a security benefit 
than in a lane where people have been biometrically verified 
and prescreened?
    That was the idea behind Registered Traveler. Contrary to 
what I have heard before, it is still very much TSA's idea and 
our idea and certainly this Committee and Congress's idea 
behind Registered Traveler. That, in addition to everything 
else, it serves as the logical first place where we can buy 
equipment. Mr. Mehra doesn't have to hire a lobbyist to go 
around Capitol Hill to get us to buy his stuff. It just has to 
work, and we will buy it. And TSA just has to let us use it.
    So that is the model that is still the model. We are 
thrilled that that now becomes, as of today, a national model, 
not a model limited to 18 or 20 airports.
    Ms. Norton. Mr. Barclay, are you satisfied with the notion 
that the private sector recognizes its benefit and recognizes 
that it would have to pay for it, whatever "it" turned out to 
be?
    When Mr. Brill talks about the lanes, he is obviously 
talking about--there are airports where--perhaps it could 
already--a shoe scanner could already fit. But in a country 
which has moved forward chiefly because of the marketplace, do 
you see any problem with it, as long as they pay for it?
    Mr. Barclay. No, we don't, Congresswoman. What I was 
getting at in my testimony on the "checkpoint of the future" 
that airports have to balance every day is you can come up with 
a lot of great ideas to enhance speed and convenience of 
passengers. And we are in the business of speed. I mean, that 
is what we sell in air transportation.
    Ms. Norton. Except on the ground.
    Mr. Barclay. So making people stand in lines and wait 
around is not healthy for our industry overall.
    But you come up with these balances. Private industry does 
pay for this space at airports, either through--we put in the 
rate base of Mr. Meenan's members when we build something, or 
it goes into the money that we take from passengers through 
their parking rates and other things. So you have to figure out 
a way--airports are nonprofit, public agencies, and they have 
to figure out a way to provide these new facilities, even when 
they are really good ideas. And our members want to increase 
the passenger convenience, certainly, whenever they can.
    Mr. Campbell is your expert here. He is modeling the 
"checkpoint of the future" for the TSA. So he can give you a 
specific instance. But the biggest problem systemwide is that 
airports aren't McDonald's. If they were all the same and they 
all had the same layout and had the same architect, this would 
be a much easier problem to solve for our industry.
    Ms. Norton. [Presiding.] Well, Mr. Campbell, we are all 
envious of what you have done at BWI. You can keep getting 
chosen for all the experimentation, so it says a lot about what 
you have done at Thurgood Marshall BWI.
    Gentlemen, I appreciate your testimony. As you see, I am 
pressed to think about this. I can't believe this is our 
country that is moving so slowly.
    But I say to you all that you have heard the testimony of 
Mr. Brill. At least for this element of a process, that America 
has grown to hate going to an airport. You have to face it. At 
least as to this process, what you have heard is that the cost 
is only to the private sector. The cost is not only to them, 
but there is benefit to airports, because they are not getting 
anything free from airports. And the risk is to the private 
sector.
    So the only thing I have to say, as we close this hearing, 
is I have no vision of improvement in what has become an 
obstacle course in airports without making a partnership with 
the private sector, like passenger prescreening, that says to 
them, "If you can do it at no or little cost to the Government, 
if you take the risk, we will do it." Otherwise, I have an 
announcement to make: We are stuck on stupid for a very long 
time.
    I thank you very much. I thank everybody very much.
    And the hearing is truly adjourned this time.
    [Whereupon, at 1:07 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3755.011
    
    [GRAPHIC] [TIFF OMITTED] T3755.012
    
    [GRAPHIC] [TIFF OMITTED] T3755.013
    
    [GRAPHIC] [TIFF OMITTED] T3755.014
    
    [GRAPHIC] [TIFF OMITTED] T3755.015
    
    [GRAPHIC] [TIFF OMITTED] T3755.016
    
    [GRAPHIC] [TIFF OMITTED] T3755.017
    
    [GRAPHIC] [TIFF OMITTED] T3755.018
    
    [GRAPHIC] [TIFF OMITTED] T3755.019
    
    [GRAPHIC] [TIFF OMITTED] T3755.020
    
    [GRAPHIC] [TIFF OMITTED] T3755.021
    
    [GRAPHIC] [TIFF OMITTED] T3755.022
    
    [GRAPHIC] [TIFF OMITTED] T3755.023
    
    [GRAPHIC] [TIFF OMITTED] T3755.024
    
    [GRAPHIC] [TIFF OMITTED] T3755.025
    
    [GRAPHIC] [TIFF OMITTED] T3755.026
    
    [GRAPHIC] [TIFF OMITTED] T3755.027
    
    [GRAPHIC] [TIFF OMITTED] T3755.028
    
    [GRAPHIC] [TIFF OMITTED] T3755.029
    
    [GRAPHIC] [TIFF OMITTED] T3755.030
    
    [GRAPHIC] [TIFF OMITTED] T3755.031
    
    [GRAPHIC] [TIFF OMITTED] T3755.032
    
    [GRAPHIC] [TIFF OMITTED] T3755.033
    
    [GRAPHIC] [TIFF OMITTED] T3755.034
    
    [GRAPHIC] [TIFF OMITTED] T3755.035
    
    [GRAPHIC] [TIFF OMITTED] T3755.036
    
    [GRAPHIC] [TIFF OMITTED] T3755.037
    
    [GRAPHIC] [TIFF OMITTED] T3755.038
    
    [GRAPHIC] [TIFF OMITTED] T3755.039
    
    [GRAPHIC] [TIFF OMITTED] T3755.040
    
    [GRAPHIC] [TIFF OMITTED] T3755.041
    
    [GRAPHIC] [TIFF OMITTED] T3755.042
    
    [GRAPHIC] [TIFF OMITTED] T3755.043
    
    [GRAPHIC] [TIFF OMITTED] T3755.044
    
    [GRAPHIC] [TIFF OMITTED] T3755.045
    
    [GRAPHIC] [TIFF OMITTED] T3755.046
    
    [GRAPHIC] [TIFF OMITTED] T3755.047
    
    [GRAPHIC] [TIFF OMITTED] T3755.048
    
    [GRAPHIC] [TIFF OMITTED] T3755.049
    
    [GRAPHIC] [TIFF OMITTED] T3755.050
    
    [GRAPHIC] [TIFF OMITTED] T3755.051
    
    [GRAPHIC] [TIFF OMITTED] T3755.052
    
    [GRAPHIC] [TIFF OMITTED] T3755.053
    
    [GRAPHIC] [TIFF OMITTED] T3755.054
    
    [GRAPHIC] [TIFF OMITTED] T3755.055
    
    [GRAPHIC] [TIFF OMITTED] T3755.056
    
    [GRAPHIC] [TIFF OMITTED] T3755.057
    
    [GRAPHIC] [TIFF OMITTED] T3755.058
    
    [GRAPHIC] [TIFF OMITTED] T3755.059
    
    [GRAPHIC] [TIFF OMITTED] T3755.060
    
    [GRAPHIC] [TIFF OMITTED] T3755.061
    
    [GRAPHIC] [TIFF OMITTED] T3755.062
    
    [GRAPHIC] [TIFF OMITTED] T3755.063
    
    [GRAPHIC] [TIFF OMITTED] T3755.064
    
    [GRAPHIC] [TIFF OMITTED] T3755.065
    
    [GRAPHIC] [TIFF OMITTED] T3755.066
    
    [GRAPHIC] [TIFF OMITTED] T3755.067
    
    [GRAPHIC] [TIFF OMITTED] T3755.068
    
    [GRAPHIC] [TIFF OMITTED] T3755.069
    
    [GRAPHIC] [TIFF OMITTED] T3755.070
    
    [GRAPHIC] [TIFF OMITTED] T3755.071
    
    [GRAPHIC] [TIFF OMITTED] T3755.072
    
    [GRAPHIC] [TIFF OMITTED] T3755.073
    
    [GRAPHIC] [TIFF OMITTED] T3755.074
    
    [GRAPHIC] [TIFF OMITTED] T3755.075
    
    [GRAPHIC] [TIFF OMITTED] T3755.076
    
    [GRAPHIC] [TIFF OMITTED] T3755.077
    
    [GRAPHIC] [TIFF OMITTED] T3755.078
    
    [GRAPHIC] [TIFF OMITTED] T3755.079
    
    [GRAPHIC] [TIFF OMITTED] T3755.080
    
    [GRAPHIC] [TIFF OMITTED] T3755.081
    
    [GRAPHIC] [TIFF OMITTED] T3755.082
    
    [GRAPHIC] [TIFF OMITTED] T3755.083
    
    [GRAPHIC] [TIFF OMITTED] T3755.084
    
    [GRAPHIC] [TIFF OMITTED] T3755.085
    
    [GRAPHIC] [TIFF OMITTED] T3755.086
    
    [GRAPHIC] [TIFF OMITTED] T3755.087
    
    [GRAPHIC] [TIFF OMITTED] T3755.088
    
    [GRAPHIC] [TIFF OMITTED] T3755.089
    
    [GRAPHIC] [TIFF OMITTED] T3755.090
    
    [GRAPHIC] [TIFF OMITTED] T3755.091
    
    [GRAPHIC] [TIFF OMITTED] T3755.092
    
    [GRAPHIC] [TIFF OMITTED] T3755.093
    
    [GRAPHIC] [TIFF OMITTED] T3755.094
    
    [GRAPHIC] [TIFF OMITTED] T3755.095
    
    [GRAPHIC] [TIFF OMITTED] T3755.096
    
    [GRAPHIC] [TIFF OMITTED] T3755.097
    
    [GRAPHIC] [TIFF OMITTED] T3755.098
    
    [GRAPHIC] [TIFF OMITTED] T3755.099
    
    [GRAPHIC] [TIFF OMITTED] T3755.100
    
    [GRAPHIC] [TIFF OMITTED] T3755.101
    
    [GRAPHIC] [TIFF OMITTED] T3755.102
    
    [GRAPHIC] [TIFF OMITTED] T3755.103
    
    [GRAPHIC] [TIFF OMITTED] T3755.104
    
    [GRAPHIC] [TIFF OMITTED] T3755.105
    
    [GRAPHIC] [TIFF OMITTED] T3755.106
    
    [GRAPHIC] [TIFF OMITTED] T3755.107
    
    [GRAPHIC] [TIFF OMITTED] T3755.108
    
    [GRAPHIC] [TIFF OMITTED] T3755.109
    
    [GRAPHIC] [TIFF OMITTED] T3755.110
    
    [GRAPHIC] [TIFF OMITTED] T3755.111
    
    [GRAPHIC] [TIFF OMITTED] T3755.112
    
    [GRAPHIC] [TIFF OMITTED] T3755.113
    
    [GRAPHIC] [TIFF OMITTED] T3755.114
    
    [GRAPHIC] [TIFF OMITTED] T3755.115
    
    [GRAPHIC] [TIFF OMITTED] T3755.116
    
    [GRAPHIC] [TIFF OMITTED] T3755.117
    
    [GRAPHIC] [TIFF OMITTED] T3755.118
    
    [GRAPHIC] [TIFF OMITTED] T3755.119
    
    [GRAPHIC] [TIFF OMITTED] T3755.120
    
    [GRAPHIC] [TIFF OMITTED] T3755.121
    
    [GRAPHIC] [TIFF OMITTED] T3755.122
    
    [GRAPHIC] [TIFF OMITTED] T3755.123
    
    [GRAPHIC] [TIFF OMITTED] T3755.124
    
    [GRAPHIC] [TIFF OMITTED] T3755.125
    
    [GRAPHIC] [TIFF OMITTED] T3755.126
    
    [GRAPHIC] [TIFF OMITTED] T3755.127
    
    [GRAPHIC] [TIFF OMITTED] T3755.128
    
    [GRAPHIC] [TIFF OMITTED] T3755.129
    
    [GRAPHIC] [TIFF OMITTED] T3755.130
    
    [GRAPHIC] [TIFF OMITTED] T3755.131
    
    [GRAPHIC] [TIFF OMITTED] T3755.132
    
    [GRAPHIC] [TIFF OMITTED] T3755.133
    
    [GRAPHIC] [TIFF OMITTED] T3755.134
    
    [GRAPHIC] [TIFF OMITTED] T3755.135
    
    [GRAPHIC] [TIFF OMITTED] T3755.136
    
    [GRAPHIC] [TIFF OMITTED] T3755.137
    
    [GRAPHIC] [TIFF OMITTED] T3755.138
    
    [GRAPHIC] [TIFF OMITTED] T3755.139
    
    [GRAPHIC] [TIFF OMITTED] T3755.140
    
    [GRAPHIC] [TIFF OMITTED] T3755.141
    
    [GRAPHIC] [TIFF OMITTED] T3755.142
    
    [GRAPHIC] [TIFF OMITTED] T3755.143
    
    [GRAPHIC] [TIFF OMITTED] T3755.144
    
    [GRAPHIC] [TIFF OMITTED] T3755.145
    
    [GRAPHIC] [TIFF OMITTED] T3755.146
    
    [GRAPHIC] [TIFF OMITTED] T3755.147
    
    [GRAPHIC] [TIFF OMITTED] T3755.148
    
    [GRAPHIC] [TIFF OMITTED] T3755.149
    
                                    

</pre></body></html>
